<html>
<title> - MASSACHUSETTS V. U.S. EPA: IMPLICATIONS OF THE SUPREME COURT DECISON</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





 MASSACHUSETTS V. U.S. EPA: IMPLICATIONS OF THE SUPREME COURT DECISION

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2007

                               __________

                            Serial No. 110-7


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming
                        globalwarming.house.gov







                  U.S. GOVERNMENT PRINTING OFFICE
58-082                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman

EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin
JOHN B. LARSON, Connecticut            Ranking Member
HILDA L. SOLIS, California           JOHN B. SHADEGG, Arizona
STEPHANIE HERSETH SANDLIN,           GREG WALDEN, Oregon
  South Dakota                       CANDICE S. MILLER, Michigan
EMANUEL CLEAVER, Missouri            JOHN SULLIVAN, Oklahoma
JOHN J. HALL, New York               MARSHA BLACKBURN, Tennessee
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     4
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     7
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     7
    Prepared Statement...........................................     9
Hon. Jay R. Inslee, a Representative in Congress from the State 
  of Washington, opening statement...............................    10
Hon. Stephanie Herseth Sandlin, a Representative in Congress from 
  the State of South Dakota, opening statement...................    10

                               Witnesses

Panel I:
    Honorable Stephen L. Johnson, Administrator of the U.S. 
      Environmental Protection Agency............................    12
        Prepared Testimony.......................................    14
    Honorable Nicole Nason, Administrator, National Highway 
      Traffic Safety Administration (NHTSA)......................    33
        Prepared Testimony.......................................    35
Panel II:
    Honorable Jerry Brown, Attorney General, State of California.    60
        Prepared Testimony.......................................    64
    The Honorable Martha Coakley, Attorney General, Commonwealth 
      of Massachusetts...........................................    72
        Prepared Testimony.......................................    76

 
  MASSACHUSETTS V. U.S. EPA: IMPLICATIONS OF THE SUPREME COURT DECISON

                              ----------                              --
--------


                          FRIDAY, JUNE 8, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:03 a.m. in room 
2318, Rayburn, Hon. Edward J. Markey [chairman of the 
Committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Herseth Sandlin and Cleaver.
    The Chairman. Good morning, and thank you all very much for 
being here today.
    Today's hearing will focus on the aftermath of the landmark 
Supreme Court decision in Massachusetts v. EPA, both within the 
Bush administration and within Congress. In 1998, in response 
to an inquiry by then Representative Tom DeLay, the Clinton 
administration's Environmental Protection Agency said that it 
believed that the Clean Air Act provided it with the authority 
to regulate carbon dioxide. One year later, a group of 
environmental and other advocacy organizations petitioned the 
EPA to use this authority to set greenhouse gas standards for 
cars. But it wasn't until 2003, when the Bush administration 
had already embarked on a course of denial, delay and dismissal 
of the risks of climate change and the need to address it, that 
the EPA repudiated the Clinton administration's conclusion that 
carbon dioxide was a pollutant that could be regulated and 
denied the petition. That petition became the case known as 
Massachusetts versus EPA.
    Until April of this year, the Bush administration continued 
to assert that it lacked authority to regulate carbon dioxide. 
It continued to assert that the science was uncertain, that 
voluntary programs to reduce emissions would be sufficient and 
that rhetorical policy goals should take the place of binding 
regulatory language.
    It continued to fight the states who were pushing to move 
ahead.
    But all that changed when the Supreme Court ruled that 
under the plain meaning of the Clean Air Act, carbon dioxide is 
a pollutant and that EPA could not hide behind its smoke screen 
any longer. In fact, under the Supreme Court's interpretation 
of the Clean Air Act, EPA now has the duty to regulate as long 
as it determines that emissions of carbon dioxide endanger 
public health and welfare.
    Never the less, the President has issued a new executive 
order that effectively said start studying this problem and try 
to finish it up right before I leave office. Six and a half 
years into his administration, after the scientific consensus 
on the dangers of climate change has become overwhelming, after 
we hear that the earth has warmed so much that transportation 
routes in Greenland that used to require dog sleds in the 
winter now can be traveled by boat, the President sees no 
urgency and is engaged in a stall.
    Instead of moving to regulate against the threat of global 
warming, he has decided that his cabinet is to spend the 
remainder of his term talking about it.
    And the signs that this issue isn't being taken seriously 
enough by this administration don't end there.
    Just last week, the head of NASA said that he wasn't sure 
if global warming was a problem that we needed to wrestle with. 
At this week's G-8 meeting the President indicated that all he 
is willing to do is engage in fruitless discussions on the 
nature of non-binding goals until the very end of his 
administration, leaving his successor with the task of actually 
doing something.
    I hope that our Executive Branch witnesses will be able to 
shed some light on the nature and stringency of the proposal 
they are working on. But as the EPA and NHTSA lace up their 
shoes and start to head over to the starting blocks, 12 States 
are already sprinting to the finish line as they have already 
promulgated regulations that reduce emissions from cars. They 
have already concluded that the science is unequivocal, the 
risk is real and the solutions are within our grasp.
    Under the circumstances, it would be helpful to the planet 
if our regulatory agencies would simply stop being obstacles to 
other actors. If EPA would grant California's request to act, 
other States could act as well.
    I hope that Mr. Johnson will be able to shed some light on 
the schedule of the approval process. I expect some witnesses 
have also taken notes of the emergence of a legislative attempt 
to block EPA from acting. The discussion draft pending in the 
Energy and Commerce Committee, for example, would have the 
effect of overturning Massachusetts versus EPA. Specifically, 
that legislation would remove EPA's authority to set greenhouse 
gas standards for cars and pre-empt States' rights to by 
requiring EPA to deny California's request to move forward with 
its own greenhouse gas program. In its place, that bill 
proposes anemic fuel economy standards and opens the door to 
allow fuel made from dirty coal into our transportation fuel 
supply.
    The legislation fails to meet the test established by 
Speaker Pelosi earlier this year that any legislation we 
approve must both address America's energy dependency without 
increasing the threat of global warming and address the threat 
of global warming without increasing our energy dependency.
    So we have a moral obligation to ensure that we reduce our 
dangerous dependency on imported oil from the Middle East by 
making our cars and our trucks much more efficient, and we must 
meet that challenge posed as well by global warming.
    I look forward to hearing from our witnesses both from the 
Bush administration and its response to the Supreme Court 
decision and to Congress's pending plans to reject that 
decision altogether and from the States which will be 
represented here as well.
    That concludes the opening statements of the Chair.
    I now turn to recognize the gentleman from Oregon, Mr. 
Blumenauer, for an opening statement.
    [The statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Blumenauer. Thank you, Mr. Chairman, and I deeply 
appreciated your convening this hearing this morning.
    As you have noted, given the draft of the--circulated out 
of the Commerce Committee--underscores some of the problems 
still at work here on Congress, and you and I, along with Mr. 
Cleaver, Ms. Herseth, had an opportunity this last week, 
starting in Greenland but going across Europe, dealing with 
leaders, true leaders in coping with the problem of global 
warming, underscoring the gap between the foot-dragging here 
through EPA for the last 6 years aided and abetted by forces in 
Congress that are still in denial.
    It is critical that we have this conversation today. And I 
do deeply appreciate it. I applaud your leadership and that of 
our Speaker, who has made it clear that she, for one, has a 
much different view.
    The gap between the science, between what is happening with 
foreign countries, where the United States torpedoed an 
opportunity to have real progress just this week, to what we 
are seeing, the lack of action by EPA for years is forcing at 
the local and State level initiatives. My State of Oregon is 
one that has joined with California in trying to deal 
meaningfully. We have 522 cities and hundreds of college 
campuses that have said, we are not waiting; we are going to 
move forward.
    But the mindset that we are seeing from the administration 
and some forces in Congress, if we are not equal to the 
challenge, are going to set us further behind, and a world that 
looks to the United States for leadership will continue to be 
perplexed and disappointed.
    I am hopeful that we will be able to bring into tighter 
focus these issues as a result of the hearing that you have 
scheduled here today.
    I look forward to hearing from our witnesses, particularly 
the people who are fighting for the right for States to move 
forward to step in where the Federal Government has been unable 
and refused.
    Thank you.
    The Chairman. The Chair recognizes the gentleman from 
Oregon, Mr. Cleaver, for an opening statement.
    Mr. Cleaver. Thank you, Mr. Chairman, and I will have a 
very short statement.
    I, too, would like to express appreciation to you and 
Speaker Pelosi for the visionary move that allowed us to see 
firsthand in Greenland what is transpiring on this small ball 
rolling around the sun we call earth, and it is truly alarming. 
And as I have said many times recently, time is not on our 
side.
    On the front page of yesterday's Washington Post, which I 
am sure the witnesses have seen, there is a photograph of a bay 
in Greenland. We were in this spot about 7 and a half days ago. 
And we had the opportunity to speak with Greenlanders, who are 
not scientists. They are not Republicans or Democrats. They are 
not policy wonks. They are not trying to get any pushback on 
global warming. They are residents. Just a few of the 53,000 
people who live there, and they are very clear: Their lives 
have changed. Global warming is real. Places where they used to 
sled, now they fish. And when you look at this bay and see the 
blue and listen to the natives tell you that this is not 
supposed to be blue at this time of the year--it never has 
been--it is chilling.
    And let me just conclude by saying, it was terribly 
embarrassing to meet with legislators from other nations and to 
hear them say that they have spoken with people in this 
government who are still denying the science of global warming.
    It is my hope, it is at this point my prayer, that we will 
have a revolution in the way we think about this issue and 
begin to join the 21st century.
    I look forward to raising some questions with you during 
that period.
    Thank you, Mr. Chairman.
    [The statement of Mr. Cleaver follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. The gentleman's time has expired
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    It is clear that we have had States really showing some 
vision across the country to move to defeat the scourge of 
global warming. And I think the States' message should be to 
the Federal Government that old saying, ``lead, follow or get 
out of the way.'' And frankly, this administration has not 
lead, has not followed and has not gotten out of the way. And 
we are determined to have a Federal Government that will lead, 
much less not get out of the way.
    And the reason is that States historically have helped lead 
the country forward. You think about woman's suffrage. It was 
Wyoming first in 1869 that moved forward followed by Colorado. 
And these States, including California, and my State, and 
Oregon and six others, have helped lead this country to a new 
energy future. We are determined in the next several weeks to 
have the Federal Government show some leadership finally.
    I was in Europe talking to other members of other 
governments last week with an energy subcommittee and was asked 
to respond to Prime Minister Tony Blair as he spoke to an 
interparliamentarian group in Berlin. And I had an exchange 
with the Prime Minister. Basically, I was presenting the case 
that the President's view that we can fight global warming with 
volunteerism is just doomed to failure. You know, you can run a 
bake sale based on voluntary activity. You cannot run a war on 
global warming. It is sort of like the President wants to write 
little frilly letters to oil companies saying, will you fellows 
just stop polluting the planet, and expecting them to respond. 
That is like expecting consumers to just volunteer to pay at 
the pump. The voluntary system is not going to work here.
    I asked the Prime Minister what he thought the best 
argument was to try to get the White House and this 
administration to finally understand why we need binding 
commitments, why we need a cap-and-trade system, why we need 
renewable portfolio standards. And I thought his answer was 
instructive. He said, it is clear we need new technologies. And 
to get new technologies, we need to drive investment into those 
technologies. And to drive investment into those new 
technologies, we need binding commitments to tell the investors 
that they should move to clean energy in the future. And I 
thought that was the right answer for the world, and it is the 
right answer for America.
    And I look forward in the next few weeks getting the 
Federal Government to finally show some leadership.
    Thank you.
    The Chairman. Great. The gentleman's time has expired.
    The Chair recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. I wanted to thank you for having this 
hearing, and I wanted to thank our witnesses. And Administrator 
Johnson was in South Dakota a couple of years ago, shortly 
after we passed the Policy Act in 2005, which I supported 
primarily because of the renewable fuel standards that we had 
for the first time that many of us from midwestern Great Plains 
States had advocated for years and finally were able to get--
although we didn't get it quite at the level we would have 
liked, I know that the administrator was taking steps at that 
time to look at the regulations necessary as it related to the 
production process in meeting the 7 and a half billion gallon 
renewable fuel standard of which we will surpass based on 
current projections by the end of this year, which I appreciate 
the opportunity this morning to explore further with our 
witnesses and with members of the committee.
    The President's 35 billion gallon renewable--I wish it were 
renewable, fuel standard requirement--I think the language is 
alternative fuel standard. And so I look forward to exploring 
the issue there as I have done with others at the White House 
with regard to renewable fuels versus alternative fuels and the 
importance of addressing a greenhouse gas reduction policy 
federally which helps lead the way internationally as so many 
of our discussions on the recent Congressional delegation trip 
to Europe identified.
    So, Mr. Chairman, thank you again for the hearing, and I 
yield back.
    The Chairman.  All time for opening statements by members 
has expired.
    We will now turn to our panel.
    Mr. Blumenauer.  May I inquire?
    I don't see any of our Republican colleagues here. Was 
there any statement that was submitted for the record that 
would help us clarify any of their positions or concerns about 
the nature and extent of the hearing today?
    The Chairman.  I would have to, if the gentleman would 
allow me, to inquire of the minority if there are any 
statements.
    But to be fair, today was a day that the Congress was 
supposed to be in session. The Congress has now decided that it 
will not meet today. And so I think many of the Republicans 
have returned to their home districts as of last night, and I 
think that is something that we should note in fairness.
    If there are any statements that the minority wishes to 
have included in the record, we will include it in the record. 
But like I said, it is something that has to be noted.

     STATEMENTS OF STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. 
     ENVIRONMENTAL PROTECTION AGENCY; AND NICOLE R. NASON, 
ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION, 
               U.S. DEPARTMENT OF TRANSPORTATION

    The Chairman.  Let me turn to now recognize Stephen 
Johnson. Stephen Johnson was sworn in as the 11th Administrator 
of the United States Environmental Protection Agency just over 
2 years ago, after 26 years at the EPA. Prior to becoming 
administrator, he held several senior level positions, 
including acting administrator, deputy administrator and held 
several other senior level positions including acting admin--
including assistant administrator and other positions.
    So we welcome you, Mr. Johnson, whenever you feel 
comfortable, please begin.

                STATEMENT OF STEPHEN L. JOHNSON

    Mr. Johnson.  Thank you very much, Mr. Chairman.
    The Chairman.  Could you put on the microphone?
    Mr. Johnson.  Again, Mr. Chairman, thank you and members of 
the committee, thank you for the opportunity to testify today 
about climate change and energy security.
    As you know, in Massachusetts v. EPA, the Supreme Court 
made several findings regarding EPA's denial of a petition to 
regulate greenhouse gas emissions from new motor vehicles under 
the Clean Air Act. EPA is moving forward to meet the Supreme 
Court's decision in a thoughtful, deliberative manner, 
considering every appropriate option and every appropriate tool 
at our disposal.
    In that context, on May the 15th, President Bush directed 
EPA and the Departments of Energy, Transportation and 
Agriculture to coordinate our efforts in taking the first 
regulatory step to address greenhouse gas emissions from cars. 
The President called on us to base our work on his Twenty in 
Ten plan, which would reduce U.S. gasoline consumption by 20 
percent over the next 10 years. This announcement both 
represents and responds to the Supreme Court's recent ruling 
and provides a path forward in improving our energy security by 
reducing U.S. dependence on oil.
    Additionally, in keeping with EPA's commitment to address 
the court's ruling expeditiously and responsibly, we signed a 
formal notice that starts the public process for considering 
the California waiver petition. We recently held two widely 
attended public hearings, and the public comment period remains 
open until June the 15th.
    As we continue our progressive yet practical strategy to 
cut our domestic carbon footprint, the President also 
understands that reducing greenhouse gas emissions is a global 
challenge. And on May 31st, the President offered a global 
strategy.
    Last week, the President called upon the world's 15 largest 
emitters to set a global goal on a long-term greenhouse gas 
reduction. The President proposed to convene a series of 
meetings with other countries, including rapidly growing 
economies like India and China to establish a new framework for 
the post-2012 world. Under the framework, each country would 
establish mid-term national targets and programs that reflect 
their own current and future energy needs.
    The President believes that by encouraging and sharing 
cutting-edge technologies, major emitters can meet realistic 
goals. Both domestically and internationally, this 
administration is addressing the serious challenge of global 
climate change. As you all know, in 2002, President Bush 
committed to cut greenhouse gas intensity by 18 percent through 
the year 2012, a goal that we are on track to meet and even 
possibly exceed.
    According to the EPA data reported at the United Nations 
framework convention on climate change, U.S. greenhouse gas 
intensity declined by 1.9 percent in 2003; 2.4 percent in 2004; 
and 2.4 percent in 2005. Put another way, from 2004 to 2005, 
the U.S. economy increased by 3.2 percent while greenhouse gas 
emissions increased by only 0.8 percent.
    Under the President's leadership, we are seeing real 
results. According to the International Energy Agency, from 
2000 to 2004, U.S. emissions of carbon dioxide from fuel 
consumption grew by 1.7 percent while our economy expanded by 
nearly 10 percent. The U.S. had a lower percentage increase 
than Japan, Canada, the original 15 countries of the European 
Union, India or China. And in fact, only two of the original EU 
15 countries in the Kyoto Protocol are on schedule to meet 
their Kyoto targets.
    Over the last 6 years, the Bush administration has invested 
more than any other nation in the world, $37 billion, in a 
comprehensive climate change agenda. EPA climate programs 
include a wide array of domestic and international partnerships 
which rely on voluntary measures to reduce greenhouse gas 
intensity, spurring investments and removing barriers to the 
introduction of clean technologies.
    I would be happy to speak in greater detail about EPA's 
many climate partnership programs.
    Again, thank you. Thank you very much for the opportunity 
to testify, and before I take questions, I would ask that my 
full written statement be submitted for the record.
    [The statement of Mr. Johnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Without objection, it will be included in the 
record.
    Our other very distinguished witness on the first panel is 
Nicole Nason, who began her duties as administrator of the 
National Highway Traffic Safety Administration just over a year 
ago after serving as the assistant secretary for governmental 
affairs in the Department of Transportation since July of 2003.
    We welcome you, and whenever you are ready, please begin.

                  STATEMENT OF NICOLE R. NASON

    Ms. Nason. Good morning, Mr. Chairman. Thank you for the 
opportunity to be here.
    Since the administrator spoke about the Twenty in Ten, in 
the interest of time, I thought I would confine my remarks to 
CAFE this morning and that piece of the President's proposal.
    A key component of the Twenty in Ten plan that the 
President has proposed is to significantly boost fuel economy 
for cars and for light trucks. The President's goal to raise 
fuel efficiency would save 8.5 billion gallons of gasoline 
annually in 2017.
    Towards that end, the administration forwarded legislation 
to Congress to grant the Secretary of Transportation the 
authority to reform CAFE for passenger cars in February.
    The Bush administration has a proven record in this area. 
We have raised CAFE standards for light trucks for 7 
consecutive years from 2005 to 2011. These higher standards are 
expected to save 14 billion gallons of fuel and result in a net 
reduction in carbon dioxide emissions of 107 million metric 
tons.
    As important, the attribute-based CAFE structure that we 
established promises fuel economy benefits without jeopardizing 
safety or causing job loss or sacrificing consumer choice. 
Basing our reforms on CAFE on the National Academy of Sciences, 
we structured the CAFE program to make it more effective and 
safer and fairer.
    And we accomplished this by using a structure that 
incentivizes manufacturers to add fuel-saving technologies 
instead of downsizing vehicles. The reform has a number of 
benefits. First, we believe it will result in more fuel savings 
than under the old CAFE because now all automakers will have to 
make their vehicles more fuel-efficient.
    Second, the reform has the benefit of preserving consumer 
choice. Under the old CAFE program, an automaker generally 
manufacturers a certain quantity of smaller vehicles to balance 
out the larger vehicles they have been selling. Our attribute-
based CAFE standard benefits new vehicle buyers by having all 
five vehicles, small, medium and large, become more fuel 
efficient.
    We also tackled what the NAS called the safety penalty. The 
National Academy of Sciences estimated that CAFE was partially 
responsible for between 1,300 and 2,600 lives lost in 1 year 
alone. They looked at 1993. Our restructuring of CAFE 
incentivizes automakers to add fuel-saving technologies instead 
of downsizing the vehicles, and we believe we are able to 
minimize the safety impact.
    Mr. Chairman, our effort to reform CAFE will guide the way 
in meeting our next challenge.
    As you know, as the administrator just spoke, the President 
has directed the Departments of Transportation and EPA, 
Agriculture and Energy to take steps towards regulations that 
would cut gasoline consumption and thus reduce greenhouse gas 
emissions. The steps called for in the executive order will 
proceed in a manner consistent with sound science analysis of 
benefits and cost, safety, and economic growth.
    It is a complicated legal and technical matter. It will 
take us some time to resolve, but the President has directed us 
to compete this regulatory process by the end of 2008.
    We have received most of the manufacturers' product plans 
for cars, and we expect to receive their plans for light trucks 
shortly.
    Mr. Chairman, given the Supreme Court's interpretation of 
the Clean Air Act, there are now, in effect, two agencies with 
authority to regulate motor vehicle fuel economy and carbon 
dioxide tailpipe emissions. And as the President stated, our 
regulatory efforts are not a substitute for effective 
legislation.
    Accordingly, we continue to ask the Congress to enact the 
President's Twenty in Ten proposal. It is the most responsible 
way to raise fuel economy standards to reduce our dependence on 
foreign oil and cut greenhouse gas emissions.
    Thank you very much. I look forward to answering your 
questions.
    [The statement of Ms. Nason follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  Thank you very much. And now we will turn to 
questions from the select committee.
    The Chair will recognize himself.
    Mr. Johnson, during the May 14th press conference on the 
President's executive order, you quoted Justice Scalia's 
dissenting view in the case of Massachusetts v. EPA where you 
said that--where he said that if you were to determine that 
there is endangerment associated with carbon dioxide emissions, 
only then would EPA be required to regulate greenhouse gas 
emissions from vehicles.
    Do you believe that emissions of carbon dioxide from motor 
vehicles endanger public health or welfare, Mr. Johnson?
    Mr. Johnson.  Well, Mr. Chairman, we believe that 
greenhouse gas emissions and global change is a serious issue, 
and as we prepare and draft our proposed regulation for 
addressing greenhouse gas emissions from automobiles, we will 
be addressing the issue of endangerment. It is a process that 
we have been following since 1990.
    The Chairman. So you have been following it since 1990, but 
you have yet to reach a conclusion as to whether or not the 
CO<INF>2</INF> does, in effect, endanger the public health or 
welfare?
    Mr. Johnson. Let me be clear. The process of addressing the 
issue of endangerment on air pollutants we include as part of 
our proposed regulation, and that is what I was referring to 
since 1990.
    The issue of global climate change, as you are probably 
well aware, having read the Supreme Court decision, is an issue 
that goes back to the late 1970s. In fact, in 1978, the Supreme 
Court does an excellent job of going through the rather lengthy 
history of the issue of global climate change, and they go back 
to 1978.
    The Chairman.  Actually, it even goes back before that. I 
think you just picked an arbitrary date.
    But the question is to you, Mr. Johnson, whether or not you 
agree with now the overwhelming consensus of science globally 
that there is an endangerment to the public health and welfare 
that is being caused by emittance of CO<INF>2</INF> into the 
atmosphere. That is squarely on your shoulders. And your answer 
to that question, of course, is the central question here 
today.
    Is it an endangerment to the public health and welfare of 
our country and the world that CO<INF>2</INF> is being emitted 
into the atmosphere?
    Mr. Johnson. Global change is a very serious issue, and the 
issue of endangerment under the Clean Air Act, particularly 
under Sections 202 and 211, have to be taken into consideration 
as part of our regulatory determination.
    The Chairman. Is it a danger, Mr. Johnson? Is 
CO<INF>2</INF> a danger to the American public, in your 
opinion?
    Mr. Johnson. Mr. Chairman, global change is a very serious 
issue----
    The Chairman. Is it a danger to the American people, Mr. 
Johnson, that CO<INF>2</INF> in massive quantities is being 
emitted into the atmosphere?
    Mr. Johnson [continuing]. We will be laying out our 
position on endangerment as part of our proposed regulation.
    The Chairman. It is very difficult to believe, Mr. Johnson, 
that you, as the environmental minister for the United States, 
as the chief protecter of the environment for the United 
States, have yet to come to a conclusion as to whether or not 
CO<INF>2</INF> is, in fact, a danger to our people and to the 
people of the world.
    You are the last major environmental minister in the 
Western world that has not come to a decision on this. And we 
should be the scientific leader, not the laggard, and to the 
extent to which you are still deliberating allows for this 
danger to build as an even greater threat to our people and to 
the entire world.
    Mr. Johnson. Mr. Chairman, the issue of endangerment is a 
legal term of art, as you know, that is invited in the Clean 
Air Act, and as the agency has been practicing since 1990, that 
its position on endangerment of an air pollutant is included as 
part of its proposed rulemaking. And my note to you, again, is 
we recognize that global warming, and greenhouse gas emissions, 
is a serious issue and that we are addressing it through 
drafting regulations, for controlling it through for new 
automobiles, and the issue of endangerment will be part of our 
proposed regulations.
    The Chairman. I understand what you are saying, Mr. 
Johnson. But your testimony is just further evidence that the 
Bush administration is out of step with the science and with 
the world on this issue of whether or not CO<INF>2</INF> 
endangers our planet and the people in our country. And I think 
that we are at a critical juncture at this point.
    It was not helpful that the White House last week in 
anticipation of the G-8 summit said that the Bush 
administration's goals were aspirational for dealing with 
greenhouse gasses. The Bush administration's goals are not 
aspirational. They are procrastinational. They wanted to delay 
dealing with this issue. They move now from a policy of denial 
that there is a problem to delay in dealing with it, and the 
very fact that you are not answering this question of 
endangerment is just further evidence of that.
    Mr. Johnson. Mr. Chairman, it would be irresponsible of me 
to make a final determination, from a regulatory perspective, 
under the Clean Air Act without having an opportunity to 
propose, go through notice and comment and then make a final 
decision. I am abiding by what the law directs me to do and 
that is to go through a public notice and comment process.
    Oh, by the way, I think that is good government, and if you 
look at the schedule in my 26-year history as a government 
employee, to write a major regulation generally in my 
experience takes 18 to 24 months. This is a very complex 
regulation, and what the President has directed us to do is to 
write a regulation and have it final by the end of 2008. That 
is a very aggressive, yet we believe a practical, strategy for 
addressing it.
    The Chairman. Well, I believe that you and I are going to 
disagree on that. In fact, I just have to take note at this 
point that neither you nor your predecessors appeared for 6 
years before the lead environmental committee in the House of 
Representatives. And that is, in and of itself, a statement of 
the relationship that existed between the Bush administration 
and the Republican Congress. I mean, never before has there 
been such a successful witness protection program ever built 
that the EPA administrator did not have to appear before the 
environmental committee before in the House of Representatives, 
and this continued policy of delay here is something that 
follows on that path.
    Let me ask just one other question, and that goes to my 
home State, and it is a successful case, Massachusetts v. EPA 
and the decision which was rendered by the Supreme Court.
    As you know, before the Energy and Commerce Committee, 
there is now language which actually removes the authority 
which the Supreme Court confirmed that you had--that the EPA 
had to regulate CO<INF>2</INF> by actually prohibiting EPA from 
setting national vehicle tailpipe standards.
    Do you support language which would remove from you the 
authority to be able to deal with vehicle tailpipe standards?
    Mr. Johnson. We have taken no position on the legislation, 
but as my colleague from NHTSA pointed out, we prefer 
legislative effects and certainly prefer the President's Twenty 
in Ten legislative proposal because it provides--it is less 
subject to litigation. It also provides certainty, and it also 
helps to prevent future delay.
    The Chairman. So you have no position on legislation 
removing authority from your agency?
    Mr. Johnson. We have not taken any position on that 
legislation.
    The Chairman. And a final question. It also forces you to 
deny the State of California waiver requests to implement its 
own vehicle greenhouse gas standards. Do you support these 
provisions that remove your agency's authorities?
    Mr. Johnson. Again, we have taken no position on the 
legislation, the California petition, where we are reviewing 
expeditiously and yet responsibly. The public comment period is 
still open. It closes on June the 15th. And that is the status 
of where we are at on the California petition.
    The Chairman. And when are you going to rule on that?
    Mr. Johnson. We have not made a determination of the date.
    The Chairman. Actually, it is quite shocking that the lead 
environmental agency in the United States does not have a view 
on the defense of its own authority to protect the environment 
as legislation is moving through the Congress. It is just 
something I think at this time in our country in which would be 
very disturbing to the American people if they knew that this 
was the actual state of debate within the Bush administration 
and between Congress and the Bush administration.
    Let me turn now and recognize the gentleman from Oregon, 
Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    Mr. Johnson, is it the intensity of greenhouse gasses or 
the greenhouse gasses that are providing the pollution that 
concern us about global warming?
    Mr. Johnson. Greenhouse gas emissions are what are 
concerning us about global warming.
    Mr. Blumenauer. Thank you.
    You cited statistics this last year, it was only eight-
tenths of a percent, I believe, in terms of emissions, 1.7 
percent increase in transportation. At these rates, how many 
centuries will it take any of the other developed economies to 
catch up with the United States to exceed us?
    Mr. Johnson. Sir, what I do know is that, by analysis that 
the agency has done, approximately by the year 2015, the 
developing nations----
    Mr. Blumenauer. I am talking about my specific----
    Mr. Johnson [continuing]. Will exceed--
    Mr. Blumenauer. My specific question was, what you cited in 
reference to developed countries, not China, which uses a 
fraction, three metric tons per person as opposed to our 19 
metric tons.
    Mr. Johnson. You also have 1.3 billion----
    Mr. Blumenauer. Absolutely. How many centuries would it 
take a developed, any of the developed economies to pass us at 
this rate?
    Mr. Johnson [continuing]. I don't know the answer to that.
    Mr. Blumenauer. Would you calculate that just to give us a 
sense of perspective, how many centuries? Don't need to know 
how many years. Just need to know how many centuries.
    Is there any other developed country, other than China, 
that has taken this laissez faire approach that you are 
defending for the Bush administration? Is there any other 
developed country that has an approach similar to what you are 
advocating here today?
    Mr. Johnson. First of all, I have to disagree----
    Mr. Blumenauer. I don't want you to debate that. I want to 
know if there is any other country that has a similar laissez 
faire approach.
    Mr. Johnson [continuing]. Again, I beg to disagree with 
your characterization. In fact, as a nation, we are in fact the 
world's leader. We have spent $37 billion on advancing science 
and technology. That is more than any----
    Mr. Blumenauer. Mr. Johnson, I am asking specifically, and 
you can't have a straight face and look at it on a per capita 
basis, on a percentage basis, what other countries are doing. 
We are the largest economy in the world. We are the largest 
greenhouse gas emitter in the world. We have put more 
greenhouse gasses in the atmosphere than any other country in 
the world.
    Mr. Johnson [continuing]. The comparison you are giving is 
beside the point.
    Mr. Blumenauer. My question is, is there any other 
developed country that has a similar approach that you are 
advocating?
    Mr. Johnson. What I do know is that the countries that are 
certainly part of the Kyoto Protocol, there are only two that 
are meeting their targets. The others are not. For example----
    Mr. Blumenauer. So your answer is, you don't know. You 
don't know. You can't name a single name of a developed country 
that is approaching. This is what your answer is.
    Mr. Johnson [continuing]. What I am citing----
    Mr. Blumenauer. Can you report back to us with an answer, 
which, if any, country that is embracing a similar approach?
    Mr. Johnson [continuing]. I would be happy to.
    Mr. Blumenauer. I would very much appreciate that.
    You know, I had some other questions, but the one that just 
overwhelms me, at this point, you spent 27 years in the EPA?
    Mr. Johnson. 26.
    Mr. Blumenauer.  Do you have any concerns about the morale, 
the credibility, the capability of that agency as a result of 
the leadership that you are providing now, the testimony you 
are providing now, the approach that is being advocated by this 
administration? Does it--do you have any concern about its 
future credibility, the employee morale, the ability to be able 
to be up to the environmental tasks?
    Mr. Johnson. Sir, I am very proud of the outstanding 
employees and the work that the Environmental Protection Agency 
has done and continues to do.
    In fact, for example, our Energy Star Program that we in 
the Department of Energy administered last year, in 2006, 
citizens of the United States saved almost $14 billion in 
energy costs while saving greenhouse gas equivalents to 25 
million automobiles. That is the number of automobiles in the 
State of California and Illinois combined. That is a program.
    Our Smart Wise Program dealing with trucks and others, 550 
companies have signed up, and we have significant savings and 
greenhouse gas emissions from that----
    Mr. Blumenauer. That was not my question. My question was, 
do you have any concern with the testimony you are giving with 
the foot-dragging from EPA, with our being out of step with the 
rest of the world, do you have any concern about what that does 
for the morale, the professionalism and the credibility of EPA? 
Not a few projects here or there that pale by comparison with 
what you can do down the street. Go to the Norweigian embassy. 
Go to Denmark in terms--do you have any concerns about what 
impact this has on the functioning of EPA?
    Mr. Johnson [continuing]. Well, sir, I think we have a very 
aggressive and yet practical strategy for addressing climate 
change that is delivering real results, and I would also like 
to point out that EPA, in the independent survey, was noted 
this year as being one of the top 10 best places to work in the 
Federal Government. And that is a fact I am very proud of, and 
we are continuing along that way.
    Mr. Blumenauer. May say more about the Bush administration 
than the EPA, but thank you very much.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I am not going to get into an argument about whether the 
United States is the headlight or the taillight with regard to 
dealing with this problem of climate change. I think people 
around the world already have pretty much answered that 
question.
    But during the Supreme Court case, the EPA argued that if 
it were granted the authority to regulate greenhouse gasses 
under the CAA, it would be unwise, quote, unwise to do so at 
this time. The EPA made the claims that doing so could conflict 
with the current administration's efforts to address climate 
change, particularly concerning international climate 
negotiations.
    So, Mr. Johnson, in your opinion, why would the EPA 
consider coordination by the EPA with the President's climate 
change initiative to be potentially conflicting?
    Mr. Johnson. Well, sir, one is that we certainly, and I 
certainly accept the Supreme Court's decision that 
CO<INF>2</INF> is a pollutant and that we are moving forward 
with regulating CO<INF>2</INF> from new automobiles under the 
Clean Air Act. This is--the court's decision is very complex. 
We are moving forward in an expeditious but responsible way for 
addressing greenhouse gas emissions from automobiles, and 
certainly we are considering the impact on other sources, such 
as stationary sources.
    Mr. Cleaver. I have so many questions that it is difficult 
to follow up because I need to ask you so many questions. I am 
frankly confused about this, and as I mentioned earlier, a 
little embarrassed because we seem to be behind the rest of the 
world.
    Can you just quickly give your opinion as to why the 27 
nations of the EU are already moving and in many instances 
moving legislatively to deal with this issue and we are not? I 
mean, how much time do you think we have to begin to address 
this issue, and if--well, answer those first, please.
    Mr. Johnson. First of all, I believe the U.S. is a global 
leader in dealing with global climate change.
    Mr. Cleaver. Do you think anybody else in the world 
believes that?
    Mr. Johnson. I certainly believe that at the very--I am 
very pleased that we reached an agreement at the G-8 and that 
it has been agreed that there will be a process for rapidly 
developing a new comprehensive post-2012 agreement. There is an 
agreement to establish a long-term global goal to substantially 
reduce greenhouse gas emissions, and there was an agreement by 
each nation which would be the ones deciding on how is the best 
way to achieve that. And as I said, we have a very aggressive 
plan in the United States. We are beginning to write 
regulations to control greenhouse gas emissions from new 
automobiles and a number of partnership programs that are 
developing real results, and we are making progress.
    Mr. Cleaver. Thank you.
    I am frustrated. And I am frustrated only because, you 
know, I would like to have a candid exchange, and I am not sure 
that this is happening.
    On March 13th of this year, a draft bill aimed at moving 
the United Kingdom to a low carbon economy was introduced, and 
without exception, the MPs that we met with last week all 
indicated that it was going to be approved. And in the measure, 
they set a 60 percent goal of--I am sorry, the measure would 
require mandatory 60 percent cut in the UK's carbon emissions 
by 2050 compared to the 1990 levels.
    And so when I see nations moving ahead like that, I am 
having difficulty trying to conclude that we are the world 
leader, and we won't even admit that there is global warming.
    Do you admit--do you concur that there is, in fact, global 
warming?
    Mr. Johnson. Yes, as I said and as the President said since 
2001, there is concern for greenhouse gas emissions and concern 
over global warming. That is why we have invested $37 billion 
as a nation to understand and to address it.
    Mr. Cleaver. How much longer is the understanding period?
    Mr. Johnson. Well, as I said, sir, we have been moving 
forward since 2001 and we, with the President's directive, are 
taking the first steps to regulate greenhouse gas emissions 
from new automobiles.
    Mr. Cleaver. Thank you.
    The Chairman. If I might just follow up with the gentleman 
on one question.
    You can't have it both ways, Mr. Johnson. You are touting 
the fact that you are starting to write regulations for 
tailpipe emissions yet you have no view on whether or not the 
Congress should eliminate your authority to do so.
    Which is it?
    Mr. Johnson. Well, I leave that decision up to Congress, 
and certainly as the administration----
    The Chairman. You are saying it would be fine if the 
Congress removed from you----
    Mr. Johnson [continuing]. That is not what it said.
    The Chairman. Yes, it is. You are saying it is up to 
Congress. You don't have a view. You are going to sit there 
mute.
    Mr. Johnson. We don't have a position as an administration, 
sir. That is what I said.
    The Chairman. You are the environmental minister for the 
United States. There is a proposal to take away your authority 
to regulate CO<INF>2</INF> coming from tailpipe emissions. You 
are touting right now that you are starting to write 
regulations on it, and you are saying to us that you don't have 
a view on whether or not Congress should take away your 
authority?
    Mr. Johnson. You are asking me to take a view of a specific 
piece of legislation which we have not taken a position on, and 
that is what I keep repeating that we have not taken a position 
on.
    There are many ways to address environmental issues, and 
that can be done through a variety of mechanisms, whether it is 
through NHTSA and CAFE, through EPA and the Clean Air Act or 
other pieces of legislation.
    The Chairman. Your silence, Mr. Johnson, is deafening 
because it is a silence that the entire administration has had 
towards these issues for the entire 6 and a half years that it 
has been in office.
    Let me turn now and recognize the gentleman from Washington 
State, Mr. Inslee.
    Mr. Inslee. Thank you.
    Mr. Johnson, could you give us your response to the NASA 
report of May 30th, 2007, about the earth's climate?
    Mr. Johnson. I am not personally familiar with that 
specific report.
    Mr. Inslee. This is a report, the headline is, Research 
Finds That Earth's Climate is Approaching a, quote, Dangerous, 
close quote, Point.
    You have read that, I assume?
    Mr. Johnson. Well, the reports that I have read are the 
IPCC, the International Program on Climate Change, and 
certainly as an administration, we have not only invested in 
those through money and our own scientists, but certainly we 
support what the IPCC reports say.
    Mr. Inslee. That is impressive, but you are telling me that 
the director of the environmental ministry of the United States 
has not read the report just a few weeks ago indicating the 
United States is coming to tipping points? And did you not read 
the conclusions of the lead author James Hansen who said, 
quote, if global emissions of carbon dioxide continue to rise 
at the rate of the past decade, this research shows there will 
be disastrous effects, including increasingly rapid sea level 
rise, increased frequency of droughts and floods, and increased 
stress on wildlife and plants to rapidly shifting climate 
zones, close quote.
    Now are you telling me you are unfamiliar with that 
research? That is a pretty simple question.
    Mr. Johnson. If you would like me to answer the question, I 
would be happy to.
    Mr. Inslee. Yes or no would be handy.
    Mr. Johnson. What I am telling you, according to the IPCC, 
extreme weather, climate and sea level impacts due to climate 
change are very likely.
    Mr. Inslee. I just want to make sure that I understand this 
and so does the American public.
    Are you telling me that the lead minister of the 
environmental agency, the United States, the director of the 
EPA is unfamiliar with the most recent NASA research which 
indicated we are approaching a tipping point which could tip 
the climatic system in the world within 10 years. I want to 
know, did you read that or not?
    Mr. Johnson. I have not read that report.
    Mr. Inslee. Thank you. I appreciate that.
    And your policies are consistent with not reading the 
science coming out of the Federal Government.
    Mr. Johnson. That is a very unfair characterization, sir.
    Mr. Inslee. Well, I read it.
    Mr. Johnson. Well, good for you. Did you read the IPCC 
report?
    Mr. Inslee. Yes, I have, and in quite considerable detail.
    Let me ask you this: When--under President Bush's policies 
and your policies, when will the--when will we reach a tipping 
point which will tip us into major climactic shifts in the 
world? When will that occur?
    Mr. Johnson. It is still an issue of scientific debate.
    Mr. Inslee. And when, according to your targets, when will 
the world reach doubling of CO<INF>2</INF> from pre-industrial 
levels?
    Mr. Johnson. Again, depending on whose projections--I don't 
have a specific date, but a number of scientists have various 
opinions on when that might occur.
    Mr. Inslee. And tell me this, when do you believe it should 
be allowed to occur? What is the target that you believe that 
the world should have to eliminate this catastrophic threat? 
What targets should we have and what year?
    Mr. Johnson. That is precisely why the President proposed 
at the G-8 summit to bring people together to establish what 
that target should be and what steps then each nation should 
take to help achieve that target.
    Mr. Inslee. We have been reading these reports now for over 
a decade. Are you telling me that the lead person for the 
Environmental Protection Agency cannot give us a target that 
the world should have to limit the amount of carbon dioxide to 
prevent these catastrophic effects? Is that what you are 
telling me? You can't give me a number or date.
    Mr. Johnson. I won't give you a number. I am saying there 
are many opinions, and we think that it is important for the 
nations, both developed and developing nations, to get together 
to identify what that goal or that target should be and then 
take steps at the national level.
    Mr. Inslee. And where does the United States' position on 
that, what should the target be?
    Mr. Johnson. We have not made a position on that.
    Mr. Inslee. We have paid a lot of tax money. You have told 
me we spent $35 billion, and you can't come up with a number 
that the United States should propound? Is that what you are 
telling me? Where did that money go?
    Mr. Johnson. What I am saying is, we have not identified a 
specific number. We think there is a lot of science that leads 
to a wide range of numbers, and that is why we think that it is 
important for us to discuss it in an international context.
    Mr. Inslee. I can tell you that my constituents are grossly 
embarrassed by that response that the leading nation in the 
world technologically, who took a man to the moon, cannot 
establish an international target or the head of the EPA who 
can't give us what the target should be is grossly 
unsatisfactory. And it is like saying that, you know, we are 
going to have a meeting next year to talk about whether or not 
we should try to get Osama bin Ladin.
    We should have a clear target by now in the United States, 
and I cannot for the life of me understand why you can't give 
us what you think should be safe for Americans on that level. 
And I hope some day you can do that because we intend to create 
one in the United States Congress.
    My time has expired.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    As I indicated in my opening statement, the area I would 
like to pursue with you are these perhaps interim regulatory 
systems that the administration plans to take, but I would 
assume with the notion that it would inform the legislative 
process that we are debating here in Congress with regard to 
the dual objective with energy independence and reducing 
greenhouse gas emissions. One piece of the administration's 
Twenty in Ten plan is the alternative fuel standard that would 
require 35 billion gallons of alternative renewable fuels 
available by 2017, and I strongly supported, as I mentioned in 
my opening statement, the 7\1/2\ billion gallon standard in the 
2005 Energy Policy Act. So I appreciate the additional 
initiative from the administration, and I know in visiting 
directly with the President, he feels strongly about this 
initiative, and he doesn't want to do anything to undercut his 
own initiative.
    So I would raise with you the question I raised with him 
and other members of his staff about the issue of the 
particular mix of energy sources that the administration 
envisions in satisfying this requirement.
    If you could comment on that, Administrator Johnson, and 
any conversations you have had as the agencies work together, 
perhaps Secretary Johanns has voiced interest or concerns about 
this particular mix. And then, you, in your position 
particular, are you considering the relative greenhouse gas 
footprints of the fuels in that portfolio?
    Mr. Johnson. The answer is yes to your--to the last 
question.
    As part of our developing our proposed regulation for 
addressing greenhouse gases from automobiles, there are really 
two ways of addressing----
    Ms. Herseth Sandlin. Before I get to that, though, I want 
to talk precisely about the energy mix. And so what is 
anticipated in the 35 billion gallon initiative? Because I do 
have a question for you as it relates to Minnesota.
    And when we get to these State initiatives, what they are 
doing and how your agency is responding. But when you say, yes, 
you are considering the different footprints, may I inquire, 
further elaboration that relates to renewable energy sources, 
such as cellulosic ethanol versus coal to liquid in meeting 
that 35 billion gallon target.
    Mr. Johnson. With regard to the legislation and the 35 
billion gallons, the legislation was presented and certainly 
announced in the State of the Union and was focused on two 
things: one, energy security and, second, addressing 
environmental concerns, particularly global climate change. In 
our proposal, we were--I would perhaps refer to it as 
technology neutral. That is, that we identified a number of 
technologies, ranging from corn ethanol to soybean bio diesel 
to cellulosic ethanol as well as, as you point out, coal to 
liquid. And in our proposal, we were being technology neutral 
but believe that with advances in technology both for 
cellulosic as well as even in coal to liquid, that we would see 
improvements both in the technology being more cost-effective 
as well as also addressing environmental concerns particularly 
in the area of coal to liquid.
    Ms. Herseth Sandlin. But our experience tells us that if 
you look just at the renewable fuels standard of 7.5 billion 
gallons and how we structured different tax incentives, that 
one fuel can overwhelm another. We have seen that with ethanol 
versus bio diesel, which is why I proposed separate standards 
for those fuels and carb-outs for cellulosic ethanol. Have 
there been any discussions with your agency and others about 
separating out, understanding what motivates the technology-
neutral position, but how as these technologies are advancing, 
that we don't have, you know, the possibility of coal to 
liquid, which doesn't have the kind of footprint in terms of 
reducing greenhouse gas emissions that ethanol production does, 
cellulosic ethanol in particular about separating out the 
renewable--the standards for which we are reaching an aggregate 
of 35 billion?
    Mr. Johnson. In some of our scenarios that we ran to 
determine this ambitious goal of 35 billion gallons, we looked 
at a variety of combinations, and we believe that certainly 
cellulosic ethanol plays a very significant role in helping 
us--helping the Nation achieve 35 billion gallons.
    Ms. Herseth Sandlin. Do you believe that we can achieve 35 
billion gallons with renewable fuel sources alone, or do we 
need alternative and need coal to liquid?
    Mr. Johnson. Well, those are part of the discussions that 
we need to have. We think there is opportunity for all, 
certainly from an environmental perspective. And as we move 
forward on the regulation of fuel for addressing greenhouse 
gases under the Clean Air Act, certainly the carbon footprint 
will be an issue that we have to address. The greenhouse gas 
emission is something we have to address for all of the 
alternative fuels.
    Ms. Herseth Sandlin. Mr. Chairman, may I inquire one 
additional--if I may ask--one additional follow-up question?
    The Chairman. Please.
    Ms. Herseth Sandlin. On the issue of the State initiatives, 
I know some of the focus done on California's initiative, we 
may be pursuing that more with the next panel. Could you 
provide me and the rest of the committee an update on your work 
with the State of Minnesota as it relates to evaluating the 
greenhouse gas emissions from automobiles with higher blends of 
ethanol, currently only in 10 percent ethanol blend is approved 
but the Minnesota State legislature has acted in a way that 
would increase that blend to 20 percent ethanol. And if you 
could address that both as it relates to what you are doing 
with new automobiles in your regulatory authority but also 
existing automobiles in the fleet, those that are maybe only a 
decade old versus those which are pre-1995?
    Mr. Johnson. I would be pleased to. Would you like me to 
respond now?
    Mr. Chairman, we are actively working with the State to--
and in fact, this summer, we are expecting data to help us 
better understand the 20 percent and the questions that we need 
to address to make sure that the 20 percent blend doesn't have 
a negative impact on emissions or the equipment. And we are 
working with all the stakeholders, including the State as well 
as the automobile industry fuel manufacturers and others, 
Department of Energy and others to make sure. So we are very, 
very much interested in and reviewing and considering the 
proposal.
    The Chairman. The gentlelady's time has expired. And we 
will go for a second round here. There are some other questions 
I think that the committee really has to unearth before we 
reach the second panel. Let me ask you, Mr. Johnson, if you are 
going to regulate fuels by setting an alternative fuel 
standard--following up on Ms. Herseth Sandlin's question--if 
you are going to regulate fuels by setting an alternative fuels 
standard under section 211 of the Clean Air Act, you have to 
have made an endangerment finding. How can you reconcile an 
endangerment finding with the promotion of coal to liquids 
which has dramatically higher greenhouse gas emissions than 
renewable fuels, and has the administration been making that 
proposal to the Congress?
    Mr. Johnson. Well, as part of--sir, as part of--Mr. 
Chairman, as part of our analysis of developing our proposed 
regulation, we will be evaluating the coal to liquid as well as 
other alternative fuels to make sure that they will meet what 
we end up proposing for regulating greenhouse gases in new 
automobiles. So that is a very important question and an 
important consideration.
    The Chairman. Well, I think it is a conflict for the 
administration. First, you are saying you haven't had time to 
make an endangerment finding, but simultaneously, you are 
proposing a coal-to-liquids program for the United States. And 
it just seems to me that you have got a responsibility to issue 
your endangerment finding and do so soon, given the fact that 
Congress is now considering your coal-to-liquids proposal. And 
I think that there is an urgency to it. You have no time really 
left, and if Congress moves forward on it, it would be because 
you didn't resolve this conflict. And it is squarely on your 
shoulders to decide whether or not this coal to liquids is 
something that is going to endanger us with additional 
CO<INF>2</INF> emissions. Mr. Johnson, you have pointed out 
that, assuming you do move forward with a rulemaking, as a 
result of the Supreme Court decision, you will be required to 
find the carbon dioxide emissions from vehicles endanger public 
health or welfare in order to do so. Assuming that you do make 
that finding, is it safe to say that EPA would also have 
concluded that carbon dioxide emissions from power plants and 
other stationary sources pose such a danger and that emissions 
therefore also must be regulated under the Clean Air Act?
    Mr. Johnson. Sir, the Supreme Court's decision, which, as 
you know, as we have been discussing focuses on motor vehicles 
and with regard to impact on other sources under the Clean Air 
Act, we are in the process of evaluating that now.
    The Chairman. Just to put a fine point on this, if it is a 
danger if CO<INF>2</INF> is a danger coming from tailpipes, 
would it not also be a danger coming from utilities or coming 
from industrial stationary sources?
    Mr. Johnson. From a legal standpoint and under the terms 
under the Clean Air Act, that is one of the important questions 
that we are reviewing right now.
    The Chairman. A rose is a rose. CO<INF>2</INF> is 
CO<INF>2</INF>, Mr. Johnson. It would really be helpful to us 
if you could just give us some confidence that, if you find 
that CO<INF>2</INF> is a problem coming out of tailpipes, that 
you also think it is a problem coming out of the utilities or 
out of other industrial stationary sources. That is not a 
satisfactory answer.
    Let me turn to you, Ms. Nason. The Bush Administration, 
President Bush, in his State of the Union Address, recommended 
that we increase the fuel economy standards by 4 percent per 
year over the next 10 years. Let me just show you a chart, Ms. 
Nason, because I think this can be helpful to you so you can 
understand why this proposal is so important and why this 
Massachusetts v. EPA decision and the California statute are so 
important. In 1977, we reached 46 percent dependence upon 
imported oil. It ramped up very quickly from a very small 
percentage over a 7-year period to 46.5 percent dependence on 
imported oil. But the Congress passed a law, a law saying that 
the fuel economy standards for the American automotive fleet 
had to be doubled over a 10-year period. And so while it was at 
13.5 miles per gallon in 1975, it mandated that, by 1986, it be 
doubled to 27 miles per gallon. And you can see what happened 
after that law went into effect. We dropped down by 1985 and 
1986 to only 27 percent dependence upon imported oil. And our 
consumption of oil dropped, and as a result, the carbon 
footprint coming from our automotive sector dropped 
dramatically.
    However, then, unfortunately until today, a 20-year period, 
no significant increases in fuel economy standards has been 
promulgated. And in fact, we have now slipped backwards from 
the standard we reached in 1986, back from 27 back to about 25 
miles per gallon. And so, as a result, we are now 60 percent 
dependent upon imported oil. In other words, we increased from 
27 percent dependence on imported oil to 60 percent dependence 
on imported oil in just 20 years.
    Now we have 170,000 young men and women over in Iraq; 1.6 
million Americans have now served over there in Iraq; 1.6 
million Americans have gone over there. And while the 
administration has used some justification for being over 
there, we now realize it wasn't a nuclear weapons program. They 
knew for sure before the war started that there was no nuclear 
weapons program in Iraq and that there was no al Qaeda 
connection. This place has a source of oil. The Middle East is 
a place that we, in fact, receive our oil from becomes 
increasingly important.
    If we increased to 35 miles per gallon, which is 4 percent 
per year, that actually backs out all of the oil which we 
import from the Persian Gulf. And so the President's proposal 
becomes very important. In the past, while rhetorically saying 
the right things, we have found, many of these environmentally 
related issues, the actions have not followed. So my first 
question to you, Ms. Nason, is, does the President want you to 
mandate that this 35 miles per gallon standard be reached by 
2017, 2018 or 2019? A mandate, Ms. Nason.
    Ms. Nason. Yes. Thank you, Mr. Chairman. First, could I 
just talk about the chart for one second?
    The Chairman. Sure.
    Ms. Nason. As you know, most of oil used that we bring in 
is gasoline; it is about 45 percent, another roughly 15 for 
diesel. So transportation accounts for our greatest use of oil. 
One of the things that we saw happen in the fleet in the 1980s, 
again, as you know, is that the mix changed dramatically from 
cars to light trucks. And there was a far greater percentage. 
It is half now, light trucks versus cars, compared to where it 
was in the 1970s and into the early 1980s. And so that did 
change. While we have seen greater fuel economy in cars, the 
increase in the fleet of light trucks, SUVs as cars for people 
did have an impact on overall fuel economy, as I know you know. 
And the President's proposal, the 8.5 billion gallons that he 
talked about in the State of the Union, and really the only way 
to get there is to do roughly a 4 percent increase in CAFE year 
over year to 2017, which is the Twenty in Ten proposal does not 
contain 4 percent in writing as we have discussed. It is a 
goal. It is a target. It is something that we take obviously 
very seriously and we would work very hard to meet. But it is 
not something that we have put in writing in the statute 
because the President has also said that he would like to see 
us do a full comprehensive rulemaking, weigh all of the factors 
that we need to weigh and that our target should be 4 percent, 
but we didn't put it in writing in the Twenty in Ten proposal.
    The Chairman. Yes. That is the problem. And the problem is 
that the administration has yet to say anything about the 
proposal which is before the Congress right now in draft form, 
which calls for an increase of only 1.7 percent per year 
through the year 2022. So would this administration oppose--
would you oppose any legislation which will undermine your goal 
of 4 percent? In other words, will this administration oppose 
language which sets a goal not of 4 percent but of only 1.7 
percent?
    Ms. Nason. I think the best answer I can give you at the 
moment, Mr. Chairman, is that as we have said, we really would 
like to work with the Congress to get the authority to reform 
the program. I think the place we do have agreement--I have 
looked at your legislation and others--is on reforming the 
program. I think where we have disagreement is on stringency 
levels. I hope----
    The Chairman. See here is the problem with the President 
and with your agency, Ms. Nason. What he wants to be able to 
say in the State of the Union is that this is a goal which is 
achievable for our country. It is critical for the national 
security of our country, but he is not willing to mandate it. 
And in fact, if Congress wants to cut his goal in half, which 
is what it is now saying, this administration won't say 
anything about it, has no recommendation on it. And so we wind 
up with the administration setting a goal, but it is not 
mandated, having Congress propose something, some key Congress 
people propose that they cut the goal in half, have the 
administration say nothing about it, and then we are supposed 
to believe that this administration cares about, one, this huge 
importation of oil from OPEC and this rise in concern about 
global warming. And it doesn't square, Ms. Nason. The actions 
of the President do not square up with the promise that he has 
made to the American people on these issues.
    Let me ask one other question. Mr. Johnson has been given 
authority under EPA v. Massachusetts to regulate 
CO<INF>2</INF>. The legislation which is now pending before the 
Energy Committee would strip Mr. Johnson of his ability to 
regulate and strip his ability to give to the States their 
ability to regulate. Do you support that legislation? Do you 
believe that the EPA is not a proper place to have jurisdiction 
over this issue?
    Ms. Nason. Well, I think we are working very well together 
as the President directed for Twenty in Ten. If you are asking 
what I do support, I support Twenty in Ten. That is the 
President's proposal.
    The Chairman. I am asking now about this very critical 
jurisdictional issue which is at the heart of this hearing and 
at the heart of the legislative debate which we are having 
right now in this city. Do you support this legislation which 
would strip the authority from EPA and proposing exclusively in 
your own agency?
    Ms. Nason. In the draft committee report?
    The Chairman. That is correct.
    Ms. Nason. I think, as Mr. Johnson, the administrator, has 
made clear, sir, we don't have the official administration 
position on the draft legislation in any of the other bills 
that we see going through the House and Senate, but we do look 
forward to working with you to try to get legislation through 
this Congress.
    The Chairman. Is the goal of your agency, the mandate of 
your agency to look after the health of our country?
    Ms. Nason. No, sir.
    The Chairman. It is not, is it?
    Ms. Nason. No.
    The Chairman. No. Mr. Johnson's agency has the 
responsibility to look after the health of our country. If 
CO<INF>2</INF> is found to be a pollutant and it is something 
which is endangering the health and welfare of our country, he 
has a responsibility to do something about it. You, on the 
other hand, have a responsibility to increase the fuel economy 
of our vehicles while ensuring that safety is maintained. That 
is a different responsibility. Do you have a problem with Mr. 
Johnson having the authority to be able to protect the health 
of our country?
    Ms. Nason. I have no problem with the administrator.
    The Chairman. Well, I am talking about him having the 
authority to protect the health and welfare of our country. Do 
you have a problem with that, Ms. Nason?
    Ms. Nason. With health and welfare, no, sir, no, I have no 
problem.
    The Chairman. Well, there is language in the draft bill 
which we are now going to be considering in Congress next week 
which would strip Mr. Johnson of his ability to deal with that 
issue. So that is a problem, and that is something that 
obviously concerns this panel very greatly and I would hope 
that it would concern the President, although I'm not really 
assured that he has drawn his attention to it. Let me turn and 
recognize the gentleman from Oregon if he has any questions.
    Mr. Blumenauer. Mr. Chairman, I do. But Mr. Inslee has a 
plane to catch before I do.
    The Chairman. Let me recognize the gentleman from 
Washington State.
    Mr. Inslee. Thank you. The world is rapidly reaching a 
consensus that we have to stop CO<INF>2</INF> from going beyond 
a doubling of CO<INF>2</INF> from preindustrial levels. And 
eventually, even your administration will reach that 
conclusion, I am confident. But your administration continues 
to insist that we can cut our emissions of CO<INF>2</INF> in 
half or more, which we have to do to reach that target, by 
voluntary mechanisms. That somehow if the President just asks 
American industrial leaders to cut their CO<INF>2</INF>, sends 
them a nice letter on nice stationary, that they will just 
voluntarily cut their CO<INF>2</INF>. But when your 
administration wants to test our kids in No Child Left Behind, 
not a voluntary program, don't get to make that decision. We 
require our kids to perform. Why does your administration 
require fifth graders to perform but expects voluntary 
decisions by CEOs of the largest corporations in the world to 
sort of volunteer to solve this problem?
    Mr. Johnson. Well let me first comment that again, we have 
a wide array of partnership programs that are delivering 
results. In addition as we have been talking about, we are in 
the process of writing regulations, mandatory regulations to 
control greenhouse gases from new automobiles. And so what our 
overall approach is includes an array of partnership programs. 
It includes now this mandatory program of addressing greenhouse 
gas emissions from new automobiles.
    Mr. Inslee. But your proposal will specifically reject what 
the rest of the industrialized world has embraced, at least in 
the European Union, cap-and-trade system to have a mandatory 
enforceable cap on CO<INF>2</INF>. You have rejected a 
renewable portfolio standard which would give Americans the 
guarantee that they will have renewable clean energy. You have 
rejected meaningful enforceable standards for green building 
requirements. You have rejected virtually every significant 
thing other than baby steps at best at most. Isn't that 
correct?
    Mr. Johnson. That is not correct.
    Mr. Inslee. Well, are you going to embrace the cap-and-
trade system?
    Mr. Johnson. Let's start--let's start with the list. We 
have not rejected a renewable fuel portfolio standard. In fact, 
it wasn't that many weeks ago that I signed the final 
regulation imposing the 7.5 billion gallon requirement on the 
United States.
    Mr. Inslee. So are you suggesting----
    Mr. Johnson. And we are, as part of our regulation of 
dealing with automobile greenhouse gas emissions. There are 
only two ways--there is no special catalytic converter that you 
can put on an automobile or a light truck to address greenhouse 
gas emissions. There are two ways, one to address the fuel and 
to address the engine efficiency.
    Mr. Inslee [continuing]. Sir, I don't have a lot of time 
and there is a plane. Are you suggesting to Congress that we 
adopt a renewable portfolio standard to give Americans the 
assurance we will have a certain degree of electricity from 
clean renewable energy sources?
    Mr. Johnson.  I believe that we should be working together 
to achieve our energy security goals and environmental goals.
    Mr. Inslee. Will the President sign a bill that has a 
renewable portfolio standard in it?
    Mr. Johnson. I look forward to working with you to address 
that issue.
    Mr. Inslee. Will the President sign a bill that has a cap-
and-trade system in it?
    Mr. Johnson. No.
    Mr. Inslee. Well, that is unfortunate. And I think you are 
premature, and I hope you are. Because the world is looking for 
America to reclaim leadership, the country that established 
democracy, the country that put a man on the moon, to have the 
White House stand in the schoolhouse door of the most effective 
thing we can do to preserve the environment for our kids. And I 
hope you have a check with the President. I hope you are not 
authorized to say that. Because if we are going to have a 
meaningful dialogue with the White House, they have got to keep 
that door open because it is the single most effective thing we 
can do for our grandkids. And I hope you go back and check with 
the White House and say, you know, maybe I spoke a little too 
soon in answering that question because I heard the President 
say he wants to turn over a new leaf when he was in Europe the 
other day, and I hope that happens for my grandkids and yours. 
So I just hope you have that conversation. I have one other 
question. Maybe I don't. I think that you made enough points. 
Thank you.
    The Chairman. The gentleman's time has expired. I think he 
made his point very well. The gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you for allowing me to shift. I will 
just be very brief. I just have two additional followups. I am 
listening to, Mr. Johnson, your rhetoric about the commitment 
and the progress that is being made. I believe I read a GAO 
report that you have missed 34 consecutive deadlines for 
upgrading appliance efficiency standards. This administration 
has missed 34 consecutive deadlines for appliance efficiency?
    Mr. Johnson. We have been working effectively with the 
Department of Energy to help establish efficiency standards, 
and there are some technical issues.
    Mr. Blumenauer. Has this administration missed 34 
consecutive deadlines for increasing appliance efficiency 
standards?
    Mr. Johnson. I would have to get back to you for the 
record, sir.
    Mr. Blumenauer. In the ballpark, is the GAO in the 
ballpark?
    Mr. Johnson. I am familiar with the GAO report. On the 
specifics----
    Mr. Blumenauer. Do any of the smart people behind you know 
if it is?
    Mr. Johnson [continuing]. Well, the Department of Energy 
has the responsibility for promulgating, is what my note says.
    Mr. Blumenauer. Yeah. So you are going to punt. I would 
just respectfully suggest that actions do speak louder than 
words, and the failure of this administration to meet 34 
consecutive deadlines for increasing appliance efficiency 
speaks volumes about the commitment of things that would 
actually make a difference. A sense of urgency, and it is 
another reason why I am--it is hard to take what you are saying 
at face value when the little tiny steps that are already 
established in law, this administration can't figure out how to 
do. I can understand 1 out of 10, maybe 2 out of 10, you know, 
batting only .400--you know, but 0 for 34 strikes me that you 
and the administration aren't serious, which leads me to my 
other question in advance of hearing from Attorney General 
Brown and others. You have not yet announced a timeline for 
making a final decision on the waiver request; is that true?
    Mr. Johnson. That is correct.
    Mr. Blumenauer. Can you give us some hint of what the 
timeline is going to be? You have been sitting on this now, 
doing whatever you are doing, for 10 weeks since the decision. 
It has been bubbling since 2005. Do people have to sue again to 
get a deadline?
    Mr. Johnson. Well, as I mentioned, we are expeditiously and 
responsibly following the statutory process, which requires a 
hearing. The State of California asked for----
    Mr. Blumenauer. I don't want to have to repeat what you 
have already said. That is why I asked, do you have a deadline 
that these people can count on. Is it going to be 3 weeks, 3 
months?
    Mr. Johnson. What I have said to the State of California 
and to others is that I want to wait until the close of the 
comment period, which is next Friday, have an opportunity to 
assess the nature of the comments, and then we will make a 
specific decision as to the timing of when we will make a 
decision.
    Mr. Blumenauer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman very much. And I would 
note that I am the author of the 1987 appliance efficiency law 
that the administration has missed all 34 deadlines in 6.5 
years in imposing higher standards of efficiency for all of 
those appliance devices which we use in our country. And of 
course, because they missed all 34 deadlines over 6.5 years, 
dozen of new coal-fired plants have to be built to generate the 
electricity for the less efficient appliances, which we use in 
our country, contributing, endangering our atmosphere with 
those additional emissions for refrigerators, stoves, whatever 
that could have been, much more efficient. Let me turn and 
recognize the gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. And those coal plants are producing about 
520,000 tons of nitrogen oxide which is polluting the 
atmosphere equal to about 500,000 automobiles. But I want to 
return to the lawsuit of the Supreme Court case. You argued, 
Mr. Johnson, that the regulation of CO<INF>2</INF> would 
require a regulation of fuel economy standards, which the EU 
stated is the jurisdiction of this Nation. But the Supreme 
Court then responded by saying that it recognized the multi 
agency efforts were needed to address certain issues. And then 
the court stated, and I quote, the fact that the DOT's mandate 
to promote energy efficiency by setting mile standards may 
overlap with the EPA's environmental responsibilities in no way 
licenses EPA to shirk its duty to protect the public health and 
welfare, unquote.
    So I would like to ask both of you, actually, recognizing 
the Supreme Court decision, is there now ongoing work between 
the two agencies since the court decision? And what direction 
is it going, if in fact there has been a response to the 
Supreme Court's directive.
    Mr. Johnson. One word answer is yes. We are working 
together post the Supreme Court decision.
    Mr. Cleaver. I am sorry?
    Mr. Johnson. I said, yes, we are working together post the 
Supreme Court decision. And it is following what the 
President's executive order directing us to do, and that is to 
work together to develop a regulation that will regulate 
greenhouse gas emissions from new automobiles.
    Mr. Cleaver. Were you working together prior to the Supreme 
Court's decision on this?
    Mr. Johnson. Well, we work very closely together because 
one of EPA's roles and responsibilities as part of fuel economy 
is to calculate fuel economy. That is the window sticker in the 
windows. And as I am sure you are probably well aware, I issued 
a rule last December which actually significantly improves that 
window sticker for the 2008 model year. And we work together in 
the CAFE program. We do tests. The automobile industry do 
emission tests. We share that information with our colleagues 
at NHTSA and Department of Transportation to enable them to 
monitor and calculate CAFE. So we have a longstanding 
relationship together.
    Mr. Cleaver. Thank you. The reason I raise the question is 
the fact that your attorneys suggested that it was the DOT's 
responsibility, arguing before the Supreme Court, which would 
also suggest that there was not prior work together.
    Mr. Johnson. Well, we have been working together for years. 
Air pollutants and engine efficiency as well as fuels.
    Mr. Cleaver. Why would your attorneys argue that it was the 
DOT's responsibility?
    Mr. Johnson. My recollection is that----
    Mr. Cleaver. I mean, I have it right here.
    Mr. Johnson. It was my recollection because of CAFE, 
because Department of Transportation is responsible for the 
CAFE standard, not the EPA.
    Mr. Cleaver. Ms. Nason, is that----
    Ms. Nason. Yes, Congressman. I think there was concern 
about not having overlapping regulations. And as you just said, 
the Supreme Court's word, there was overlap, yes. There may be 
overlap in the obligations now, but we are certain that the 
agencies can work together.
    Mr. Cleaver. Seamlessly?
    Ms. Nason. And we are. We can't enforce CAFE without the 
help of the EPA even before this. So that is how we are working 
together to do that. That was the President's directive, May 
14.
    Mr. Cleaver. Well, I am glad this is being televised 
because I think the people around the Nation are weeping with 
joy because two Federal agencies are working together and 
holding hands, walking under the moonlight.
    My final question relates to deforestation. Scientists 
have--of course, if we don't agree that the scientists--some 
dumb scientists have concluded that the loss of natural forests 
around the world contributes more to global emissions each year 
than the transport sector. And so if that is--do you agree with 
that, Mr. Johnson, before I----
    Mr. Johnson. EPA does not have responsibility for the 
forests of our Nation or for global forests but----
    Mr. Cleaver. I understand that.
    Mr. Johnson [continuing]. But certainly from an 
administration perspective, we are concerned about global 
deforestation, and I believe that, across the globe, steps need 
to be taken to avoid deforestation.
    Mr. Cleaver. That is the most cost-effective way to reduce 
emissions; don't you agree?
    Mr. Johnson. It is a way--it is one of the tools in the 
toolbox, yes.
    Mr. Cleaver. I don't know of anything that is more cost-
effective than saying we are not going to cut down a tree, and 
so I am just wondering, what international effort is underway, 
or is there any dialogue going on on the subject in terms of 
the deforestation around the globe?
    Mr. Johnson. I would--if I could, sir, get back, for the 
record, to you. As I said, it is not EPA's responsibility, but 
I would certainly be happy to have our colleagues that are--I 
know that our State Department and others are intimately 
involved in helping to address this issue, and we will have a 
response back to you.
    Mr. Cleaver. Thank you. It is my hope that--I mean there 
has been a lot said over the last week or so from the 
administration, and it is my hope that, at some point, there 
will be more done than said. Thank you.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentlelady from South Dakota.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. Just real 
quickly, follow-up observation from the comments and questions 
from Mr. Inslee and Mr. Blumenauer. And then just a follow-up 
question for you, Administrator Johnson, along the lines I was 
pursuing earlier. When we were in Brussels a couple of weeks 
ago with Speaker Pelosi, I raised the issue with President 
Barroso about an interim target the European Union had set for 
renewable fuel usage for 2005 and the fact that they missed 
that target. And I asked President Barroso and others in the 
room what the reasons were for missing that target. And the 
explanation was the fact that it was voluntary, and no one took 
it seriously. And given our own experience with a mandatory cap 
and trade for sulfur dioxide emissions, given our own 
experience that President Bush seems to acknowledge with a 7.5 
billion gallon renewable fuel standard, it is now up to his 
initiative, the 35 billion alternative fuel standard. I do 
hope, as Mr. Inslee stated, that that indicates some 
willingness of President Bush to work with us as we move 
forward to recognize the importance of mandatory policies that 
reach the objectives and the importance of making them 
mandatory to meet the objectives, whether it is greenhouse gas 
emissions, reductions, and again, our own experience here in 
the United States with a cap-and-trade system as well as with 
these fuels, alternative fuel mandates.
    My follow-up question for you on the Minnesota studies that 
are going on, I know you had mentioned that we would be getting 
data some time this summer. But does EPA have any sort of 
timeline or deadline for then assessing that data and making a 
decision about whether or not to approve something other than a 
10 percent blend of ethanol with gasoline.
    Mr. Johnson. We don't because part of the reason we don't 
know when the data are going to come in or what the nature and 
extent of the data are. As I said, we are working very 
cooperatively with the States and others to help address the 
issue.
    Ms. Herseth Sandlin. But some of the data will be available 
this summer.
    Mr. Johnson. Yes, but again, I don't know what will be or 
won't be, and will it be sufficient to make a determination? 
Again, we are operating in an open and transparent way to 
address the issues of, again, emissions as well as the engine 
and whether in fact it can accommodate a higher blend of 
ethanol. Certainly, you know, our hope is that the engineering 
and all the answers will point us in the direction of the 
ability to do higher blends. We certainly support E85 for 
example because it has--it is good for the economy. It is good 
from an energy security standpoint, and it has a better 
environmental profile.
    Ms. Herseth Sandlin. Well, I agree with you on all that. 
But given we are still struggling to get E85 pumps available 
across the country, we have to deal with the existing domestic 
fleet as Detroit manufactures more flex-fuel vehicles, and many 
of us believe that the data will support the existing domestic 
fleet can take something higher than an E10 blend. So I would 
appreciate it if you could keep this committee, as well as the 
committees of jurisdiction I know are similarly interested in 
this issue, apprised once the data comes in this summer so that 
we can also evaluate what the initial studies and analysis 
looks like. So, thank you, Mr. Chairman.
    Mr. Johnson. We would be pleased to do so.
    Ms. Herseth Sandlin. Thank you.
    The Chairman. Thank you. And Ms. Nason, let me just do one 
final line of questioning. The four of us who are here, along 
with Speaker Pelosi, visited, first, Greenland 10 days ago to 
observe this incredible phenomenon which is occurring, this 
rapidly intensifying pace of melt and movement of the ice cap 
and glaciers and icebergs, that, if it ever happened, would 
lead to a 20-foot rise in the sea levels of the world. It is a 
frightening experience. I recommend to you, Mr. Johnson, that 
you go to it and that you see what is happening in Greenland, 
to you as well, Ms. Nason, so that you can understand fully the 
danger, not just to those that live in Greenland but to those 
that live in the United States, those that live in Florida, 
those that live on the coast lines of our country, if this 
phenomenon ever did occur. And if we are going to stop it, we 
have to start it now. If we are going to protect people from 
something that happens 50 and 100 years from now, we have to 
start now. And by the way, 70 percent of all people who will be 
alive--70 percent of the people alive today will be alive in 
the year 2015. We are not doing it for some theoretic group of 
people; 70 percent of all people living today. We have a 
responsibility to protect them.
    When we were in Europe what we found was that they are 
mandating in Europe a 43.4-miles-per-gallon standard by the 
year 2012, Ms. Nason. They are already at 35 miles per gallon. 
You are telling us today that you can't commit to a 35-mile-
per-gallon standard 10 years from now, that you can't commit 
that it will be mandatory. And yet the Europeans are going to 
meet a 43.4-mile-per-gallon standard by 2012, only 5 years from 
now. And not only BMW and Daimler Chrysler and Volkswagen, but 
Ford and General Motors have said they would meet the European 
standard. And Ford and General Motors are the leading 
automotive companies in terms of sales in Europe. Why, Ms. 
Nason, can't we meet that standard? Why can't we at least say 
we will do 10 years from now what the EU is doing today?
    Ms. Nason. Yes. Thank you, Mr. Chairman. I was in Germany 
last November and then in Japan last week, and I am going to 
Brussels next week to meet with essentially the NHTSA 
counterpart woman over there. They had had voluntary standards 
in place, which my understanding was the manufacturers had all 
said they couldn't possibly meet. And this was one of the 
difficulties that they were having. In Germany, they were 
saying they couldn't meet the European standards, and we had 
some very I think interesting discussions with the Japanese 
government about their CAFE and how they would like to see 
changes. I haven't seen Ford or GM say that they could meet 43 
miles a gallon. That would be very interesting.
    The Chairman. I talked to the American Chamber of Commerce 
in Europe, and they said they are meeting the standard. As a 
matter of fact, every American company that does business in 
Europe has signed off on and said, they will meet the goals 
that the EU is setting for a cap-and-trade system for emissions 
across all industries as well, that all the American companies 
doing business over there, which are all of our biggest 
companies, will meet that European standard.
    Ms. Nason. They have different--as you know, they certainly 
have a different fuel mix, fleet mix in Europe. I think half 
the fleet in Europe are diesels, and most of those diesels 
wouldn't meet the clean diesel requirements of the United 
States. So there are alternative ways that they could meet a 
standard that they might not be able to meet in the United 
States. As you know there is far greater penetration of diesels 
in the marketplace in Europe, and I think they are looking to 
bring clean diesels to the United States. I have seen--
Chrysler, for example, is looking to make their Jeep line 
diesels, borrowing perhaps on what Daimler had been doing in 
Europe with the Mercedes diesels. So I do think that technology 
is going to make the difference in how they can meet the 
standards in the U.S.
    The Chairman. We are not looking for us to take on a task 
that is impossible.
    Let me just ask you one final question. The Ford Escape SUV 
hybrid gets 36 miles per gallon. Is the Ford Escape SUV hybrid 
less safe than the Ford Escape SUV?
    Ms. Nason. No, sir.
    The Chairman. No. It is the same safety but with 40 percent 
higher mileage. So we are not really asking for you, Ms. Nason, 
to take on this responsibility to ask our automotive industry 
to do something that is impossible. It is something that they 
are already doing. We are asking you to set this goal for 2017 
or 2018 that can meet that national challenge, and it is 
critical that you do it. We didn't hear the right answers today 
with regard to it being mandated or it being 35 miles per 
gallon. What we have heard here today is that initiatives to 
reduce carbon emissions, such as tailpipe standards or even 
fuel economy standards, are being stalled while initiatives 
that increase carbon emissions, such as coal to liquids, are 
being encouraged. I suggest that President Bush is in danger of 
cementing his place in history as an environmental Emperor 
Nero, a man who fiddled as civilization burned down around him. 
And it is very important that this administration understand 
the threat that this planet is now under.
    We thank both of you for your testimony here today. We will 
be working in close conjunction with you for the next year and 
a half. Speaker Pelosi has made it quite clear that she wants 
to see a dramatic reduction in imported oil, and she also wants 
a mandatory cap-and-trade system pass the United States 
Congress and to be placed upon the desk of the President. That 
is going to require the two of you sitting here to be the 
central players in accomplishing these goals. So we hope--and 
we know that this will be the first of many visits that you 
have back before the Select Committee on Energy Independence 
and Global Warming, and we thank you for your testimony.
    And now we will move to our second panel. Our second panel 
is here in order to ensure that we get to the heart of the 
matter in Massachusetts v. EPA and the California statute.
    Our second panel couldn't be more distinguished.

STATEMENTS OF JERRY BROWN, ATTORNEY GENERAL OF CALIFORNIA; AND 
       MARTHA COAKLEY, ATTORNEY GENERAL OF MASSACHUSETTS

    The Chairman. We will first recognize former California 
Governor and now attorney general of California, Jerry Brown, 
who has a long history of public service that cannot be 
overstated. He is someone who, from the beginning of his 
career, has been identified with the environmental movement and 
the protection of the environment in our country. We welcome 
you, Governor Brown. Whenever you are ready, please begin.

                    STATEMENT OF JERRY BROWN

    Mr. Brown. Thank you. It is kind of hard to know where to 
begin after having listened to that exercise in obfuscation. I 
don't blame the deputies of the Bush Administration since, 
obviously, they are under discipline and under orders to stall 
and stonewall, which I guess they have done about as good a job 
as you could expect. I did examine the administrator's 
testimony with some care, and I guess the central fallacy is 
very well stated on page four where he says--and he mentioned 
similar sentiments during his testimony--quote, this is a 
complicated legal and technical matter that will take time to 
fully resolve. Well, not in California, because we have already 
resolved it. We have resolved the technical issues and the 
legal issues. We have a comprehensive plan ready to go to 
control emissions of greenhouse gases from automobiles. We are 
in the process of working up and then promulgating a 
comprehensive controlled strategy to cover power plants and 
industrial emitters and all other sources of greenhouse gases 
that California has the authority to regulate.
    It is clear from the evidence that the Bush Administration 
has been opposing efforts. I thought it was interesting, your 
comments about appliance efficiency standards. When I was 
Governor, my energy commission adopted appliance energy 
efficiency standards and building efficiency standards, by the 
way, in 19--, I think it was 1983, by the time it became final. 
And then the Reagan administration adopted a no-standard 
standard to preempt it. So this is an old story.
    In fact, it is a very old story about the waiver because, 
back in the good old days when we had a movie actor 
representing California by the name of George Murphy, and he 
defended the California waiver against the gentleman from 
Dearborn, Michigan, and the honorable Congressman argued very 
strenuously. But his measure to gut the California waiver was 
defeated, and the legislative history will clearly demonstrate 
and portray that Senator Murphy--and there was another 
Congressman by the name of Smith--all felt California had a 
pioneering role to play, and that was the purpose of the 
waiver, to enable California to lead the nation, to set 
standards and that--that view was then reaffirmed and extended 
in subsequent years when the Clean Air Act was amended to allow 
other States, like Massachusetts and Oregon, to copy California 
once the standard was enacted. So we actually have two 
standards. We have a national standard, which often is no 
standard, and we have the California standard, and the 50 
States and the 49 other States can pick.
    I think we have to recognize here that this is not so easy. 
I notice the administrator comment that some of the European 
countries and signatories to the Kyoto protocol weren't doing 
so well. Well, nobody is doing so well, including the people of 
this earth, this world that we are living in, because 
CO<INF>2</INF> is rising. According to the National Academy of 
Science, CO<INF>2</INF> rose about almost three times faster in 
the last 4 years than had been previously thought. So things 
are getting worse, and the fact that the administrator tells 
you that the emissions only grew by .8 percent and the 
intensity has gone down doesn't mean too much when you realize 
that vehicle miles driven are going up; coal plants are on the 
horizon here in great numbers; and then you have China building 
a coal plant every week. We are facing a very difficult 
problem.
    And if you listen and you really step back and look at this 
testimony, you want to know--your meeting, what is our view of 
Bush's response? What is California doing? Well, I think the 
President's response is laid out here. And when I use the word 
obfuscation, I lay it out very carefully. There is a lot of 
little stuff here. There is this and that, and maybe this 37 
billion, I am not sure what it goes to. It may be helpful; it 
may not. But the key term has to be measurement of carbon, a 
measurable target that will be a cap that will express a 
comprehensive cap for the country as part of a larger cap for 
the world. But we have to start with our own country. We need 
that cap, and then by sector, there will be a subsidiary cap. 
Now when it comes to transportation, that is, 28 percent of the 
greenhouse gas in America comes from transportation. And 
automobiles are about 20 percent of that if you take into 
account the upstream emissions that are required just to build 
the cars and to get to produce the fuel. So you have to look at 
a lifecycle measurement.
    California has already embarked upon a low carbon fuel 
standard. And that standard that is being spearheaded by 
Governor Schwarzenegger and the California Air Resources Board 
sets a 10 percent reduction within a fixed period of time. So I 
think the real question here and the real challenge is to get 
an agreement on, what are the total amount of greenhouse gases 
that are being produced, what is our yearly goal to reduce 
them? What is each sector's contribution? And unless you have a 
measurable goal, unless you have auditing and in a way that you 
can enforce your goal, it is not only rhetoric; it is 
obfuscation. And it is really dissembling. It is hard to know 
if anything at all was gained at the G-8 when President Bush 
said, okay, now we are going to do something; we are committed 
to coming out with some nonbinding goals. He is getting, in 
effect, caught up in this whole global warming discussion, but 
he is coming kicking and screaming. And it is going to take the 
Congress and it is going to take the States and it is going to 
take a lot of grassroots organizations to move the ball 
forward.
    We are fighting a political battle here. It is financed in 
great measure by automobile companies. They have sued the 
little State of Vermont. They overwhelmed them with the highest 
paid lawyers in America. And why was Vermont sued? Because they 
dared adopt the California standards. The automobile companies 
aren't waiting for the EPA to grant a waiver. They are already 
trying to destroy the standards through litigation. We are 
facing a lawsuit in Fresno, California, on the same topic. 
Rhode Island is being sued because they have dared to adopt the 
standards. Every State that adopts the California standards--
and there are now 12 of them--will be sued, will have to face 
millions of dollars of legal onslaught paid for by General 
Motors and the other members of the Automobile Alliance. But 
not content with their lawsuits and their over- lawyering this 
issue, they have now gone to the Commerce Committee, and they 
are pushing a legislative short-circuiting of the legal 
process. That is really incredible for such a prominent 
industry.
    Now I just want to go to the heart of the matter here 
because we heard the woman from NHTSA talk about it, and they 
invoked the talisman of consumer choice. Consumers 20 years ago 
didn't know that they needed SUVs and minivans, only 10 percent 
of the cars sold. Now, she acknowledges, it is 50 percent. That 
is just sovereign consumer choice. Not exactly. This is massive 
propaganda and manipulation in the form of advertising to 
promote a certain profile of automobile that suits a certain 
profit profile.
    And I understand, that is good old American economy. It is 
the market system, and that is fine from that point of view. 
But unless this Congress can curb that choice, just like we do 
in other areas--we don't have unlimited choice about everything 
we do. We have social and moral restraints. When we see the 
danger of climate change and the disruption that is going to 
happen to our lives, the rapid snow melt in California which 
will destroy our levees, impede our agriculture; the increase 
in ozone that will affect the children's lungs and respiratory 
disease in the elderly; erosion of our beaches. This is real 
stuff, not to mention the elimination of low-lying countries, 
like a good part of Bangladesh and other countries in the 
Pacific. This is serious stuff here. And in order for that--for 
us to do anything, we are going to have to have restraints. We 
are going to have to have rules. That is what Congress is all 
about. And I think we have to recognize that it is going to 
take some changes.
    Technology is very important, but it is not the only thing. 
Technology has a number of choices. We have to build different 
vehicles, different engines, but also different fuels. And 
whatever we can do to that, we have to do it. There are three 
things that are obvious: One, we have to reduce carbon in our 
fuels. We have to reduce fossil fuel consumption by efficiency, 
by technological invention. Number two, we need renewable 
energies. And number three, we have to be able to sequester and 
cap--not cap but prevent carbon from getting into the 
atmosphere from the burning of coal. It may not be here today, 
but it is worth spending billions of dollars because we have to 
get there. You have to do all three, and you have to do all 
three to the maximum degree, as fast as you can. And what you 
saw today was--I suppose you know two good--two good 
administrators. I don't want to say bureaucrats but they are 
good people. And they are doing what they are told to do or I 
suppose they will be fired just like the U.S. attorneys. I do 
think that there is some responsibility on the part of the 
administrator to follow the law, not what George Bush tells 
him, not what Cheney may say, not a little message from a White 
House staffer. I do think there is a legal requirement to 
follow the law.
    If they follow the law, California will get a waiver; the 
EPA will promulgate regulations to control greenhouse gases 
across a broad front. So just in conclusion, I would say this, 
this is not easy stuff. It is going to be tough. If he gives us 
a waiver--and when I read this testimony, it looks like he is 
in total stall mode under orders of the President. If that is 
true, we will sue him. Governor Schwarzenegger has already 
announced that. I am his lawyer. We will be there the first day 
we can. But, of course, they can stall. Even if he gives the 
waiver, the automobile companies are suing us. So it is going 
to take a couple years to get this done, and ultimately, it is 
up to you. We need Congress to settle this problem. But in the 
meantime, we have to do everything we can to get our waiver in 
California, to get other States to adopt it, to get the fuels, 
to get the cars and to do the job across the whole sector. We 
are committed, and I am committed to every legal, political and 
consumer activist initiative to get this job done.
    And I just want the automobile companies to know that there 
is a price to be paid for their sabotage of the California 
waiver. California is the biggest automobile market. And I 
would just hope that the president of General Motors and other 
companies who refuse to meet with me are listening because I 
take this very, very seriously. And I am not going to lay down 
on this. I am going to fight with every political and legal 
strategy that I can envision during the next several years when 
I still have enough energy to go at them. But they have an 
adversary, and we have been at this thing. When I was Governor, 
we had the same cast of characters fighting this when we wanted 
to reduce emissions on oxides and nitrogen and other--the 
catalytic converter. It is the same cast. It is the same 
problems. It is the same money. And we in California have even 
more resources now, and we are going to get at it.
    It is no longer just Democrats. We have Republican 
Governors in Connecticut, in California. I think we can have 
other Republican Governors around with Democrats. So it isn't a 
party thing. The Democrats are split in Congress. The 
Republicans hopefully will make up for the defecting Democrats. 
And together we are going to take this country back from 
Cheney's oil mentality and Bush's whatever--Texas short-sighted 
mismanagement of so many things that we are now suffering from. 
Thank you.
    [The statement of Mr. Brown follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Governor, very much. And I think 
that when it comes to your political energy, if there ever was 
such a thing as a renewable energy source, you are it. I don't 
think anyone is worried about you running out of energy in this 
battle on this issue.
    Now we turn to our other attorney general, the attorney 
general from the Commonwealth of Massachusetts, my own attorney 
general. And she has had an incredibly distinguished career. 
She has been the District Attorney of Middlesex County, the 
largest county in New England, one of the largest counties in 
the United States. She lives in Medford, Massachusetts, which 
is where my district office is. But most significantly, the 
case Massachusetts v. EPA, the most important environmental 
decision ever rendered by the Supreme Court of the United 
States was won by Massachusetts. And Attorney General Coakley 
here today is obviously a central player in this whole debate 
globally over whether or not we are going to deal with this 
issue.
    It is our honor to have you with us today, General Coakley, 
and we look forward to your testimony.

                  STATEMENT OF MARTHA COAKLEY

    Ms. Coakley. Thank you, Chairman Markey and Congressman 
Blumenauer.
    And Governor Brown, Massachusetts, will be right with you 
in the battle, as many of the States will, around this 
particular issue. I appreciate the invitation for General Brown 
and I to talk to you today. I have submitted written testimony. 
I am going to be brief this morning but would ask that the 
committee accept the written testimony as part of this hearing, 
and I cannot resist a very brief----
    The Chairman. Without objection, that will be included in 
the record.
    Ms. Coakley [continuing]. Thank you. I cannot resist a 
brief fish story around the global warming issue. I recall I 
had the great good fortune in the summer of 1974 to work for 
Congressman Silvio Conte, who is from western Massachusetts, 
where I grew up, and one of his big issues was cleaning up the 
Connecticut River, getting rid of the PCBs, bringing salmon 
back to the Connecticut River. He was successful in doing that. 
That was a good result, salmon in the Connecticut River.
    I read, Congressman Markey, that after your trip to Cannon 
Mountain to look at some of the effects in New England of 
global warming that the local fishermen off of New Hampshire 
and Maine indicated that for the first time they were seeing 
bluefish. They had never seen them north of Cape Cod, a very 
tangible result, a true fish story, but not a good one, and a 
harbinger of what we are facing.
    As the Supreme Court recognized this past April, States 
will be directly harmed by climate change. Particularly in 
Massachusetts, we are losing 200 miles of coastline to rising 
seas. States across the country are concerned about threats to 
water supply, the increase in severe weather events that are 
costing all of us.
    General Brown mentioned some of the effects in California. 
This commonwealth, Massachusetts, recognizes global warming 
needs immediate attention. In fact, it needs it yesterday. To 
this end, we are engaged in regional greenhouse gas initiatives 
and a market-based cap and trade program for power plant 
emissions. We are committed to investing in renewable energy 
and are leading with proposals for green public buildings and 
expansion of public transportation.
    Meanwhile, we have been waiting and eager for the Federal 
Government to take a leadership role in our necessary fight 
against global warming. One of the committee members earlier 
indicated that the Federal Government should lead, follow or 
get out of the way. It is a huge issue. On this particular 
issue--as I might note that it is on others, consumer 
protection, submortgage lending--the Federal Government has, 
frankly, been a huge disappointment in this issue. We have been 
long waiting for the Environmental Protection Agency to adopt 
motor vehicle emission standards that would allow States to 
address the leading cause of global warming. Given the decision 
in Massachusetts v. EPA and Congressman Markey's opening 
remarks, I won't belabor the history of the case. But it is 
important to note that the United States has been for a long 
time--since 1992--part of the Rio Treaty, and it commits the 
United States and other developed countries to reduce emissions 
and presumably to take leadership in that.
    Congressman Markey outlined the history where, frankly, not 
much happened, particularly recently with environmental groups 
filing the rulemaking petition in 1999. That was the basis of 
the suit that Massachusetts was lead counsel for, and I think 
it is ironic that, in this day and age, Massachusetts and other 
States have had to file a lawsuit to demonstrate to the 
Environmental Protection Agency that its job actually includes 
protecting the environment.
    Simply put, the EPA cannot plausibly say that the statutory 
trigger for commencing regulation that emissions are 
endangering public health and welfare has not been met. They 
refuse to do that today. It still flies in the face of common 
sense and all the evidence that they see before them. We are 
heartened, I will say, that the White House and EPA appeared to 
acknowledge this in their characterizations of the impact of 
the court's ruling and in their promises that regulations 
controlling greenhouse gas emissions will be forthcoming.
    However, we are disheartened, as I believe we were today, 
that the EPA has stressed the need for lengthy periods of time 
both to digest the Supreme Court decision--and I would note 
that the Supreme Court decision is not that complicated; it is 
pretty straightforward in what it decides in terms of standing, 
the authority of the EPA and their need to articulate some 
reason why they can't issue these regulations. They have 
indicated that they need to embark on a period of exhaustive 
deliberation with other agencies about what to do next. We are 
also discouraged by the EPA's reluctance to commit to firm 
proposals or any timelines for action.
    If they are serious about attacking the problem of global 
climate change, then there are two specific things that they 
should pursue immediately. They should begin immediately a 
formal process to conclude that endangerment threshold has been 
crossed. Starting that process is simple. It requires no 
further deliberation on their part. They need merely to publish 
a notice in the Federal Register and to--that they proposed to 
determine that these emissions cause--contribute to air 
pollution which may be reasonably anticipated to endanger 
public health or welfare. By beginning the process now, the EPA 
does not forfeit any right to deliberate over the more 
difficult regulatory design issues involved in actually setting 
the applicable emission standards.
    However, a continued unwillingness even to start that 
process says that their promises about being concerned about 
global warming are illusory only. Secondly, once that public 
comment process concludes next week, the EPA should grant 
California's request for a section 209 waiver for State motor 
vehicle regulation as expediently as possible. I want to 
emphasize, as General Brown did, how important the EPA's 
approval of the waiver is for the States, including the 
Commonwealth of Massachusetts, which has adopted the California 
regulations.
    While California has notified the EPA they will sue if they 
don't rule on the waiver by October, there is simply no reason 
for the EPA to wait that long. They should decide it more 
quickly. They should give a timeline on when they are going to 
decide. And I, frankly, think that General Brown and I speak 
for our colleagues when we say, we would like nothing better 
than to see any further litigation by State attorneys general 
on this issue obviated. We do have other things to do as 
attorneys general than to bring to the attention of the Federal 
Government that it is not doing its job. And so that is an 
important issue, I know, for California and for all of us who 
say: Lead, follow or get out of the way because they can't have 
it every way.
    You know, the Supreme Court ruling has induced many 
industry groups to call for a more comprehensive and a market-
based approach to replace a sector-by-sector command and 
control regulation under the Clean Air Act. We welcome in 
Massachusetts the engagement of the affected industries and the 
legislative debates, and we hope that they will work to help 
produce an efficacious result. And we emphasize that while 
Congress can improve upon the regulatory approaches that the 
Clean Air Act provides, we are very firm in believing that the 
current law allows the EPA to immediately go a long way to 
addressing the problem now.
    As Congress considers additional legislative approaches, we 
urge it to reject the language that Congressman Boucher, 
Chairman of the Energy and Air Quality Subcommittee of the 
Energy and Commerce Committee, unveiled last Friday and held a 
hearing on yesterday. I address that more at length in my 
written testimony. It would be taking a step backward to 
proceed with that legislation.
    It would be taking a step backward, and while individual 
States continue to work or lessen environmental impact, 
Congress could take a major step in the right direction by 
passing legislation to significantly increase our fuel economy 
standards without hampering States' emission efforts or 
marginalizing the EPA's authority, helping both our environment 
and consumers' wallets.
    We specifically urge Congress to respect and support the 
role of States in developing solutions. We need to find 
creative ways to structure such a program that allows for 
States to continue to play a leadership role without placing 
excessive burdens on local industries, and we suggest, for 
example, if a national cap and trade emission trading program 
were enacted, emission credits could be distributed on a State-
by-State basis, allowing each State to set aside additional 
reductions should they so choose.
    I wanted to thank you again for allowing us this 
opportunity both to submit written testimony and orally today. 
We appreciate in Massachusetts the critical work that you are 
undertaking, not just for our Nation, but for our planet.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you so much, and thank you both for 
your testimony.
    Attorney General Coakley, let me ask you this question: You 
referred to the hearing which this Select Committee on Global 
Warming had earlier this week up on Cannon Mountain up in New 
Hampshire. We heard testimony there at Cannon Mountain that the 
temperature in New England in the winter has actually warmed up 
4.4 degrees Fahrenheit since 1970. We were told by scientists 
that the weather in Boston now in the winter is now the weather 
that Philadelphia had in 1970; if this pace of warming 
increases, that we will continue to go down the eastern 
seaboard of the United States trying to find a comparable city; 
and that perhaps in the future, we will have to rename the 
White Mountains to the Mountains Formerly Called the White 
Mountains because there will be no snow.
    Now, in your case that you brought, Massachusetts v. EPA, 
could you lay out the danger to Massachusetts which you made to 
the Supreme Court and why it not only affects Massachusetts, 
but other States in our country?
    Ms. Coakley. As you know, it was a huge issue, or one of 
the issues, as to whether or not Massachusetts had suffered 
harm or could show harm, and the principal facts that we 
pointed to were what I indicated earlier about the coastline of 
Massachusetts, that because of the rise in ocean temperature 
and the receding coastline, we have actually lost 200 miles of 
coastline. We anticipate that that will continue if this 
problem is not abated.
    In a way that creates additional issues, obviously, as 
General Brown indicated, around storms, weather disasters, 
contamination of water supplies. I mean, it is not by accident, 
I guess, that the two States on the coast will feel these 
effects early already and probably be damaged the most, but 
they will affect everybody in the country as those effects 
continue to mount. And the concerning thing is--and I think, 
again, for this Supreme Court to recognize that Massachusetts 
was correct that the Bush administration was not doing its job, 
I think, speaks for itself. Their acknowledgment that we had 
met the standing by the actual danger and the anticipated 
danger supported by scientific documentation indicated, I 
think, the real danger that we face now, but more importantly 
if we do not start this process, we can expect it to continue 
unabated.
    And your questions to the EPA about rates, of how are we 
going to bring these greenhouse emission rates down, clearly 
does not indicate a timetable that begins to address in an 
effective and safe way the issues that we are facing now 
because of global warming.
    The Chairman. Now, were you surprised when Administrator 
Johnson on May 14th in his press conference announced that he 
was looking to Justice Scalia's dissent in Massachusetts v. EPA 
as the standard that he was going to use as to how the EPA 
would proceed?
    Ms. Coakley. Well, when you lose a case, I know as a lawyer 
you often look to the dissent for some comfort, but it is not 
the law of the land. And it is discouraging to see again the 
failure to acknowledge, even after all of these years and even 
after the Supreme Court has spoken, that they don't have a 
timetable, they don't have a way to proceed in a quick and 
efficacious way, which calls into question what they really 
want to accomplish. I think there is no other conclusion that 
you can draw not only before the lawsuit, but after the 
lawsuit.
    And that is why this hearing today is so important, because 
they need to be held to standards that will allow them to 
proceed to protect the environment and allow us to proceed on 
ways--as General Brown outlined, we have already begun to be 
effective in controlling these greenhouse gas emissions.
    The Chairman. Now, Attorney General Brown, there is, as has 
been noted, a piece of draft legislation that has now been 
introduced into the Congress. And we are having--and there is a 
debate over whether or not language in that draft legislation 
would, in fact, prohibit the EPA Administrator Mr. Johnson from 
giving California the ability to be able to regulate 
CO<INF>2</INF> emissions from tailpipes. The proponents of the 
legislation say that it would not prohibit it.
    Can you give us your reading of that draft legislation and 
what the implications are for your ability to protect the 
citizens of your State?
    Mr. Brown. If I am not mistaken, Chairman Dingell wrote a 
letter to the attorney generals and admitted that the draft 
would eliminate EPA's ability to grant a waiver to California 
to regulate greenhouse gas emissions from cars. So it is right 
in his letter, and I believe that he also said that EPA 
couldn't regulate greenhouse gases with respect to cars.
    So he wants to put it over in NHTSA. That is where he wants 
to situate it, and that is a very different set of standards, 
because, as you mentioned earlier, it is not dealing with 
health, it is not dealing with emissions. It is dealing with 
fuel efficiency, safety, and feasibility and the well-being of 
the industry. So those are totally different standards.
    It is very clear here that the Congress has to deal with 
the fact that--well, we have--it is Bush won't do it. He won't 
let his EPA do it, and there is a movement in Congress. If we 
just focus on auto emissions, it is coming from the Auto 
Alliance, which has a plan to sabotage any efforts to impose 
restrictions on them. That is the--you can't sugarcoat it any 
other way.
    So there we are. It is going to take--ultimately it is 
going to take Congress to clarify and to get a national 
standard. In the meantime, though, it might be easiest to get a 
California standard, because it looks like EPA is moving in a 
much more circuitous route. I think they are taking deliberate 
speed to heart, and ``deliberate speed'' doesn't mean fast. It 
means decades of failure to act. That is what it meant in the 
civil rights era, and it seems to be the same word that they 
are invoking, that he is invoking in this particular area.
    The Chairman. Let me go back to you, Attorney General 
Coakley. When it comes to Massachusetts v. EPA,there is similar 
language in this proposed legislation which could potentially 
strip the EPA of the authority which was given to it as part of 
your victory in Massachusetts v. EPA. But those who are 
propounding this legislation say that is not so.
    Can you give us your reading of what this legislation would 
do to the victory Massachusetts won at the Supreme Court?
    Ms. Coakley. I agree with General Brown on that matter, and 
my staff, including Assistant Attorney Jim Milkey, who, by the 
way, made the argument before the Supreme Court very 
effectively and convinced them, particularly on standard 
issues, that that legislation would strip the EPA effectively 
of the ability to regulate it. And I think that the committee 
has clearly noted and General Brown has noted that although 
they may have parallel tracks, NHTSA and EPA have very 
different hats to wear and mandates, and they may be at odds in 
trying to promote fuel-efficiency standards, for instance, coal 
to liquids, or other issues that do not provide for the concern 
that we have, which is the protection of the EPA.
    We believe that they are not inconsistent results, and they 
should go hand in hand, but this is not an administration that 
seems to feel that way, and their response to saying we don't 
want agencies with overlapping responsibility is to file this 
bill that would then take it away from the EPA.
    That is the completely wrong response. If there is 
overlapping responsibility, then so be it. Let those agencies 
work it out, or let Congress decide, but don't take it away 
from the agency that has, as its mandate, the need to protect 
the environment.
    It is a clear end run around, and I think General Brown is 
right in terms of what is going on here.
    The Chairman. Is your reading the same as Attorney General 
Coakley's, Mr. Brown, that Massachusetts v. EPA has eviscerated 
that legislation?
    Mr. Brown. To the extent that--yes. I want to limit my 
focus on the automobile area, but it is--clearly the goal of 
that draft legislation is to transfer from the EPA to the 
Transportation Department the responsibility to deal with 
efficiency. And there is no conflict. As the Massachusetts 
attorney general just said, the EPA is regulating emissions of 
greenhouse gases. The NHTSA is dealing with automobile 
efficiency. But even there, we have to be honest about it that 
we are suing NHTSA. They are in court, too. I was in court 2 
months ago in the ninth circuit objecting to their paltry and 
pathetic 1-mile-per-gallon increase. And as a matter of fact, 
our experts are saying it is going to increase fuel consumption 
because they are privileging cars by weight. So the bigger your 
car, the less you have to reduce.
    So they are going the exact wrong direction invoking safety 
in this consumer choice business, but they are not dealing with 
the facts, and that is why, to cut through all of the smoke and 
the fog, I noticed that the environmental defense in their 
testimony yesterday had a very simple number: 434 million 
metric tons of carbon in 2005 came from the U.S. auto sector. 
Now, there it is. How much of the 434-, which is based on the 
whole cycle from beginning to end, are they going to cut? Is it 
going to be 432- next year? Is it going up? Is it going down? 
By how much?
    So the big thing I think you have to watch out for is the 
squid process where they emit all of this ink to block any kind 
of assault on their status quo effort. So I want to just know 
434-, when does it go down? That is all we have got to know, 
and what are the means to get it down? What does it cost? What 
does it take?
    And I even said, hey, if the automobile companies need some 
money because they are so mismanaged, I say give them a few 
billion, because I think it is more important to cut greenhouse 
gases than it is to--you know, to fight with these automobile 
companies. If they need a handout, they should own up to the 
fact they can't do it without a handout. They line up like 
everybody else who is needy and has various issues, and we will 
help them.
    But the main thing is that 434 million metric tons, and get 
it down as soon as you can in the most intelligent market-based 
way that you can. That is what cap and trade is about.
    And by the way, I want to mention the other thing: oil 
dependency; 9 million barrels a day. On a carbon content basis, 
65 percent is imported; 65 percent, if you take the carbon 
content of the petroleum that we are using, comes from foreign 
countries, 9 million. That is pretty bad.
    So how do we get that down? How do we save American 
consumers' money, and how do we get the carbon out of it? It is 
that simple. If they don't give you a measure, a mechanism to 
enforce it, that is baloney. It is that simple. And I think the 
biggest enemy here is complexity and obfuscation, and we have 
got to get simple, simple, simple. How many grams are you 
taking out of the atmosphere? If you have to talk that 
language, then it is worthless. It is worse than worthless. He 
feels like he is doing something good. He should not sleep at 
night, the guy who was here.
    Ms. Coakley. You keyed into why it is important, although 
Massachusetts v. EPA is actually about motor vehicles. The 
reason why it has broader implications for that, and the reason 
why it is so important for them to make the determination that 
CO<INF>2</INF> is dangerous to that endangerment process is 
because if that is done, then they can't say, well, no, this 
should be handled by the transportation--by NHTSA. It really is 
an issue around environmental protection, not just fuel 
economy. And we have to make sure we keep our eye on that ball 
and not let them play a shell game with these issues.
    The Chairman. I thank both of you. And I just add this in a 
parenthetical, and I think it is important for people to know 
this, that the United States only has 3 percent of the oil 
reserves in the world. OPEC has 70 percent of the oil reserves 
in the world. We already import 60 percent of our oil from 
countries we should not be importing it from. Much of that 
money is used to then support al Qaeda and other efforts that 
we then have to increase our defense budget to protect against.
    That is our weakness, having only 3 percent of the oil 
resources, but we are a technological giant. That is our 
strength. And if the EPA and if NHTSA would propound the 
regulations that would unleash this technological revolution, 
then we would be using our strength against OPEC and to solve 
this problem of global warming. But until they are willing to 
recognize the danger that we are under and the solution, we 
have big problems.
    Now let me turn and recognize the gentleman from Oregon, 
Mr. Blumenauer.
    Mr. Blumenauer. Thank you very much.
    Mr. Chairman, I found the hearing today to be very useful. 
I deeply appreciate our witnesses to sort of bookend the other 
side of the equation with what I agree with Mr. Brown was sort 
of an embarrassing presentation. I really am deeply concerned 
about EPA as an institution, the hundreds of dedicated men and 
women that I work with who work there that have a mission to 
protect the health, to protect the environment.
    What I would like--I just have one question that I would 
pose to each of you. Imagine for a moment that we had an 
administration and an Administrator that was focused on 
complying with the decision and its mandate to protect the 
public health, that has been presumably having smart people 
looking at this since 2005. I understand California has had 
experience with waivers granted by EPA dozens of times, dozens 
of times. I don't think any one of them was ever rejected.
    If we get back in the mindset that they are going to comply 
with the law and they are going to protect public health and 
the environment, how fast could this be accomplished?
    I wonder if both of you would comment on how fast, how it 
would be done in an ideal world if their commitment was 
protecting the environment, complying with the law.
    Ms. Coakley. I will take a stab at that, General Brown.
    As I indicated earlier, and my folks informed me they 
should have begun right after Massachusetts v. EPA, the 
determination of the endangerment process, and from that begin 
to establish the regulations that they feel are appropriate 
once they made that finding. Whether that takes 6 months or 8 
months I am not sure, but they could do it at least that 
quickly, it seems to me, because they have been working on 
these issues, and they have before them----
    Mr. Blumenauer. And they have the body of all of the 
evidence and research and work that went into the crafting of 
the California proposal.
    Ms. Coakley. Exactly. So they have the endangerment funding 
threshold. They have hearings, and then they issue the 
regulations. But while they are doing that, they can also grant 
California the waiver so that the processes are proceeding 
immediately, some parallel, to allow the States to set the way 
in which we can proceed in a way that doesn't interfere with 
industry trade and work at the Federal and State level to start 
this process, as I said yesterday.
    The very concerning thing is all of this talk about the 
need to deliberate, and it is complicated and whatever. If they 
wanted to do it, they could do it ASAP.
    Mr. Brown. Well, California has a goal of 30 percent 
reduction in auto emission greenhouse gases by 2016, and that 
procession is complete. The regulations are ready to go as soon 
as EPA gives us the green light.
    In terms of overall greenhouse gas reduction, we have a 
goal of 25 percent. Now, that--those regulations have not been 
finished, and that will take another year or 2 to get done, but 
we are on track.
    And I don't want to minimize that this is something easy. I 
think it is difficult. I think the European countries have had 
a difficult time. Japan, Germany, France, England, they have 
all had a tough time.
    So I think what really has to happen is that we get a 
cooperative spirit to reduce to the maximum degree that is 
truly feasible, and I don't think we have that commitment. It 
is really a stall to allow companies, in this case the auto 
companies, to make as much money as they can because they are 
having a tough time. They are losing money. They are cutting 
jobs. I am very sympathetic with that, but they have got to 
fight this. This is for them. They are not going to stop. And 
that pressure then feeds into your deliberations and into the 
EPA and into the Bush administration, and there is where it is.
    I think we have to do the best job we can, get a scientific 
and technical and market consensus and try to go. Right now, it 
is a blockage. It is obfuscation. We don't want liquid from 
coal. That is not going to work. You don't want paltry CAFE 
standards like NHTSA has adopted for light trucks. I mean, we 
need a top-to-bottom honest discussion about what can be done, 
and just be practical about it. I am not saying be unrealistic, 
but I don't think we are even there yet.
    I think what is now is this stall, kind of smoke and 
mirrors kind of thing, and that prevents doing what we could do 
which, when we get that clarity, it will still be hard, and 
that is why I think we have got to get first to the point what 
is the amount that we are emitting, what is the goal that we 
can reduce, and what are the sector-by-sector game plans in 
order to get there. And I am very concerned that it is going to 
be a couple of years before we even get to agreeing on what the 
game plan is. Right now it looks like we are going to have to 
exchange warfare for the next couple of years, and that is very 
unfortunate.
    Mr. Blumenauer. I am very confident of the work that Mr. 
Markey is guiding with this committee that we can mark more 
rapid progress. The leadership of Speaker Pelosi, I think, is 
intensely focused on moving us forward.
    But the work that you are doing, I think, can help provide 
a framework. And I think I understand how it can be moved 
forward.
    I would hope that we could work with you, your staff, and 
our staff to be able to have a clear, simple explanation of how 
this could, dare I use the term, be fast-tracked, fast-tracked 
administratively, or if something needs to happen legislatively 
to make sure that you are not in limbo, you are able to move 
forward. And speaking as one of the residents of one of the 
States that is part of this coalition with you, we all have a 
stake in your success.
    So if you could help us frame that with more precision, I 
think it would be very helpful for us to be able to support 
your efforts.
    Ms. Coakley. We can do that.
    Mr. Brown.  I will--we have some very good scientists, 
technology people, lawyers in California working on these very 
issues. When I go back today, I am going to do exactly what you 
are saying. I will give you a blueprint for what you should do. 
And we have the capability to do that. We will write it up, and 
we will--we will get it to you as soon as we can. It will be 
thoughtful, it will be practical, and it will be honest; and 
maybe you can share it with our environmental protection 
Administrator.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I really don't have any questions. I wanted to express--
well, first of all, I apologize for having to leave. I am 
actually running between two committee hearings right now.
    Mr. Blumenauer. You are here with us now.
    Mr. Cleaver. I am back here now. Thank you.
    Are you interested, General Brown, in becoming the EPA 
Administrator?
    Mr. Brown. No. I like my independent role.
    Mr. Cleaver. That is a powerful statement you just made. I 
appreciate that.
    I hope that we can, as I heard you saying, take use of your 
commitment and energy in this area to deal with this growing 
problem.
    As a former mayor, you know that this is the number one 
issue of the U.S. Conference of Mayors. They set the priority 
for this year, and climate change, dealing with this issue on a 
local level is their priority. They will be dealing with this 
in their summer meeting in Los Angeles, and then we will--we 
have been asked to come to a field hearing later in Seattle.
    So I think there are people all around the country. There 
is some cause for optimism from our perspective, not from 
listening to what we heard earlier, but certainly as you look 
at the mayors, you know the U.S. Conference of Mayors is a 
bipartisan group, and they voted unanimously to name climate 
change as the number one issue.
    And so I am, to some degree, optimistic that the government 
may not lead the way, but I think the people are far ahead of 
the government, this government, and we will put--the people 
are going to push us and push some sections of our government 
into action.
    So I thank you both of you for coming, and I apologize for 
not having been here.
    The Chairman. Great.
    Well, let us then sum up. Let us let each of the attorneys 
general who are with us give us their 2-minute summations to 
the jury here in terms of what they believe that Congress 
should do with the pending legislation before us and what their 
recommendations generally are to the Congress.
    So we begin. So let us begin the final statements with you, 
Attorney General Coakley.
    Ms. Coakley. My summation may not be all that different 
from what we argued in the Supreme Court in Massachusetts v. 
EPA, which is this administration has the authority and now the 
obligation to issue regulations around motor vehicle emissions, 
and unless they can and will do that immediately, Congress has 
to take action.
    The draft discussion pending, we believe, is 
counterproductive and takes us backwards. So we are not in 
favor of that bill.
    And we would suggest further that what is very important 
for us at the State level is to allow, as California has led 
the way, to obtain those waivers so we can proceed to do what 
we are doing and work collaboratively with Congress on whatever 
legislation it feels is appropriate. And I believe that can be 
done in a way that gives industry predictability, that can 
involve them, in fact, in a way that lets them feel that they 
won't be done sector by sector, but that everybody has an 
interest--whether they are in government, they are in private 
practice, whether they are involved in Washington--has an 
interest in making sure that we address this problem.
    And it is too serious, and it is too important, and it is 
not speculative. It is a real issue that we need to start to 
address today, and we look forward to working with you and your 
staff on this committee and providing what guidance we can.
    The Chairman. Thank you very much.
    Attorney General Brown.
    Mr. Brown. I believe the most important point is to 
recognize the seriousness of climate disruption; that although 
there is always uncertainty in scientific modeling and 
evidence, the risk is so catastrophic--there is a risk, rather, 
of catastrophe, and that risk is not 2 percent or 5 percent, it 
is a substantial risk. And insurance against that is really 
what we are asking.
    And I would say in the contour of this administration's 
remarks, there seems to be no recognition of the magnitude of 
the threat that we are facing, and, therefore, their response 
is appropriately tepid for their nonrecognition of what it is 
that we are facing. So that recognition has to be the first 
thing.
    Number two, in dealing with global warming, we have a 
necessity to reduce our dependence on foreign oil, and that is 
something that every American feels very strongly about and we 
have to keep front and center.
    And then thirdly, I believe, protecting the EPA's 
authority, and that authority, of course, includes the waiver 
potential for California, and, if necessary, to block bad 
legislation. Do no harm, I would say, has to be the first 
objective and then be--as circumstances permit, get some 
positive legislation. But it may not be possible in the next 18 
months. It may take longer. I mean, if President Bush thinks it 
takes 18 months to get his own agencies to come up with a plan, 
it wouldn't be surprising if it took Congress longer than that, 
because there is more divergency there. But whatever, I think 
it is pretty clear what has to happen.
    Massachusetts won a great victory. That victory has to be 
protected. It cannot be end-run or sabotaged without great 
harm. So I think our goal, what has to be done, is clear.
    And the final point I would make is we need to state this 
problem in clear numerical measures of carbon and how much 
carbon are we taking out each year. That is the goal. And that 
should be able to be spoken in a matter of a few words and so 
everybody knows what the goal is, everybody knows where we are. 
That is the report card. And I think it speaks volumes that the 
Administrator and the representative of NHTSA did not speak in 
a measurable report-card-like way, measure us if you see this, 
that there were lots of different points.
    So I think it has to be simplified by metric tons of carbon 
linked with reducing oil dependency. That, to me, is where we 
have to go and then do as best we can given the technology and 
the costs that are entailed.
    The Chairman. We thank both of you for your eloquent 
testimony, but also for your vigorous protection of the laws of 
your States and actually of the country, because you are 
fighting to give the EPA the authority which it needs in order 
to affect our country.
    Just so we are clear here, Massachusetts v. EPA protects 
California and the other 48 States. But similarly, the 
California statute, which you are here to testify to protect, 
Attorney General Brown, has been adopted by Massachusetts and 
11 or 12 other States. So this effort coming out of the States 
is what is now applying the pressure to the Bush 
administration. But it is also coming from the mayors, it is 
coming from the universities, and it is coming from individuals 
all across our country, and similarly coming from the United 
Nations and their reports on global warming and the threat to 
our planet, but to the United States and its citizens as well.
    Speaker Pelosi in our trip as a Select Committee on Global 
Warming 10 days ago visited Greenland and its ice cap, which is 
the epicenter of the threat to the planet. We were \7/10\ of a 
mile high on a block of ice on this ice cap, which is hundreds 
of miles long and wide. And it was a five or six Empire State 
buildings high block of ice. It is melting. It is moving 
towards the sea. If it does that, ultimately it would lead to a 
20-foot increase in the sea level of the world.
    Speaker Pelosi was told by those in Greenland that she was 
the highest-ranking American public official to ever visit 
Greenland. What a shame our EPA Administrator has yet to visit. 
And she has made it quite clear that she is not going to allow 
for an interference in California law or a law which will give 
the EPA the ability to be able to act on these issues.
    But it is your efforts at the State level that has created 
now this conflict with the Bush administration. And 
Massachusetts and California have been in the lead, and we 
thank you for that. And the two individuals here are the living 
embodiment of this effort. We thank you for your efforts.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

</pre></body></html>
